<html>
<title> - THE BP TEXAS CITY DISASTER AND WORKER SAFETY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       THE BP TEXAS CITY DISASTER 
                           AND WORKER SAFETY 
=======================================================================
                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 22, 2007

                               __________

                           Serial No. 110-12

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                     U.S. GOVERNMENT PRINTING OFFICE

33-902 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

















                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Bob Inglis, South Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Timothy H. Bishop, New York          Kenny Marchant, Texas
Linda T. Sanchez, California         Tom Price, Georgia
John P. Sarbanes, Maryland           Luis G. Fortuno, Puerto Rico
Joe Sestak, Pennsylvania             Charles W. Boustany, Jr., 
David Loebsack, Iowa                     Louisiana
Mazie Hirono, Hawaii                 Virginia Foxx, North Carolina
Jason Altmire, Pennsylvania          John R. ``Randy'' Kuhl, Jr., New 
John A. Yarmuth, Kentucky                York
Phil Hare, Illinois                  Rob Bishop, Utah
Yvette D. Clarke, New York           David Davis, Tennessee
Joe Courtney, Connecticut            Timothy Walberg, Michigan
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 22, 2007...................................     1
Statement of Members:
    Marchant, Hon. Kenny, a Representative in Congress from the 
      State of Texas, prepared statement of......................    53
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     3
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1

Statement of Witnesses:
    Bowman, ADM Frank ``Skip'' (Retired), president, Nuclear 
      Safety Institute, Member, Baker Panel......................    10
        Prepared statement of....................................    11
    Cavaney, Red, president and CEO, American Petroleum Institute    23
        Prepared statement of....................................    24
        Responses to questions submitted.........................    50
    Merritt, Hon. Carolyn W., Chair, U.S. Chemical Safety and 
      Hazard Investigation Board.................................     6
        Prepared statement of....................................     7
    Nibarger, Kim, health and safety specialist, health, safety 
      and environment department, United Steelworkers 
      International Union........................................    30
        Prepared statement of....................................    32
    Rowe, Eva, relative of BP Texas City disaster victims........    21
        Prepared statement of....................................    22


                       THE BP TEXAS CITY DISASTER
                           AND WORKER SAFETY

                              ----------                              


                        Thursday, March 22, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Kucinich, Wu, 
Holt, Davis of California, Bishop of New York, Sanchez, 
Sarbanes, Sestak, Loebsack, Hare, Shea-Porter, McKeon, Petri, 
Ehlers, Platt, Wilson, Boustany, Foxx, Bishop of Utah, and 
Walberg.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Jordan Barab, Health/Safety Professional; 
Michael Gaffin, Staff Assistant, Labor; Peter Galvin, Senior 
Labor Policy Advisor; Jeffrey Hancuff, Staff Assistant, Labor; 
Brian Kennedy, General Counsel; Thomas Kiley, Communications 
Director; Danielle Lee, Press/Outreach Assistant; Joe Novotny, 
Chief Clerk; Alex Nock, Deputy Staff Director; Megan O'Reilly, 
Labor Policy Advisor; Rachel Racusen, Deputy Communications 
Director; Michele Varnhagen, Labor Policy Director; Daniel 
Weiss, Special Assistant to the Chairman; Mark Zuckerman, Staff 
Director; Steve Forde, Minority Communications Director; Ed 
Gilroy, Minority Director of Workforce Policy; Rob Gregg, 
Minority Legislative Assistant; Victor Klatt, Minority Staff 
Director; Jim Paretti, Minority Workforce Policy Counsel; Molly 
McLaughlin Salmi, Minority Deputy Director of Workforce Policy; 
Linda Stevens, Minority Chief Clerk/Assistant to the General 
Counsel; and Loren Sweatt, Minority Professional Staff Member.
    Chairman Miller. Good morning. The Committee on Education 
and Labor will come to order for the purposes of conducting a 
hearing on the British Petroleum Texas City Disaster and Worker 
Safety. Today's hearing is the first in a series of hearings to 
examine the safety of America's workplaces and to determine 
whether or not agencies assigned to oversee workplace safety, 
in this case the Occupational Safety and Health Administration, 
are doing the job that Congress gave it when it was created 35 
years ago. Over the next several months, we will be taking a 
look at OSHA's failure to issue important standards to protect 
American workers, the Bush administration's transformation of 
OSHA from a law enforcement organization into a so-called 
``voluntary compliance organization,'' the agency's inadequate 
efforts to protect immigrant workers who suffer from a high 
rate of workplace injuries and fatalities, the Nation's failure 
to protect public employees, the chronic underreporting of 
workplace injuries and illnesses and the agency's respective 
penalty structure. Of course, we will also continue to keep a 
close eye on the safety of this Nation's miners, including 
hearings on that topic next week.
    Today's hearing focuses on the cause of the disaster that 
unfolded when the explosion ripped through British Petroleum's 
Texas City refinery 2 years ago tomorrow, killing 15 workers 
and injuring 180. The British Petroleum explosion was the 
biggest workplace disaster in 18 years, yet it has received 
very little Congressional scrutiny until today. Even more 
upsetting is that 2 years after this catastrophe we are seeing 
a disturbing pattern of major fires and explosions in U.S. 
refineries.
    Responding to the 1984 Bhopal, India disaster as well as 
several catastrophic refinery and chemical plant explosions in 
the United States, in 1990, Congress required OSHA and the 
Environmental Protection Agency to publish new regulations to 
prevent such accidents. In 1992, OSHA issued its process safety 
management standard requirements for refineries and chemical 
facilities to implement management systems and identify and 
control hazards to prevent disasters like the one in Texas 
City.
    Today, we will explore why, 15 years after OSHA issued its 
standards, we are still seeing disasters in this Nation's 
refineries and chemical facilities that threaten workers' lives 
and safety of the surrounding communities. The questions 
arising from these reports are:
    What can be done to prevent such catastrophes in the 
future? Why are this Nation's refineries neglecting well-
recognized safety practices? Has the Occupational Safety and 
Health Administration been fulfilling its mission to ensure the 
safety of this Nation's refineries and chemical plants?
    Protecting the safety of refinery/chemical workers is 
reason enough to get this right, but the safety of our 
refineries and chemical facilities also has broader 
implications in the communities surrounding these plants. 
According to the Environmental Protection Agency, there are 
3,400 high priority chemical facilities in this country where a 
worst case release of toxic chemicals could sicken or kill more 
than 1,000 people in 272 sites and that could affect more than 
50,000 people. This hearing has added resonance considering all 
of the attention that has been placed since 9/11 on the 
scrutiny of this Nation's chemical plants.
    Despite the attention and the focus on the terrorist threat 
of our Nation's plants, the fact is that the British Petroleum 
Texas City explosion and other fires and explosions since then 
show that preventable accidents can also kill, injure and 
sicken people in large numbers, and we all pay the cost; for 
example, the higher gas prices of these explosions and 
resulting disruptions in our energy supplies.
    Let me say also that this is not a new issue for me, and in 
fact, for me this issue is personal. I remember well a fire at 
the Tosco Avon refinery in my district in 1999 that killed four 
men and seriously injured another. That followed an incident at 
the same refinery 2 years before that killed one worker. 
Recently again, California has suffered a major fire at the 
Chevron refinery, which has closed part of the plant and has 
caused gas prices to rise in California. Contra Costa County, 
my home county where the refinery is located, has issued its 
own industrial safety ordinance that requires an inspection 
every 3 years in accident prevention programs. In addition to 
annual inspections, one thing Contra Costa County does that 
OSHA does not do is collect information on near misses and the 
small incidents that can be used to predict the possibility of 
a major event. For example, from the information on the Contra 
Costa County's Web site, it shows that the Tesoro Golden Eagle 
refinery, formerly the Tosco refinery, where four were killed 
in 1999, has had 10 incidents--fires, explosions, chemical 
releases--in the past 3 years.
    What we are doing at this hearing today is sadly an old 
story, but it is a story that must change. It is the story of a 
company that, despite a brilliant public relations effort, 
appears to have put profit before safety and has first sought 
to blame its workers for the systemic failures of its corporate 
safety system. It is a story of the failure of the Occupational 
Safety and Health Administration to ensure that these 
facilities are safe for the workers who work within them, but 
most of all, it is a story of loss, a story of children who 
have lost their parents, parents who have lost their sons and 
daughters, and men and women who have lost their husbands and 
wives.
    The main reason that we have scheduled this hearing this 
week was due to the release of the Chemical Safety Board's 
report on the British Petroleum Texas City disaster 2 days ago. 
I want to commend the board for its excellent work and for its 
independence and for the work that it has done over the past 
several years and for the contributions this small agency has 
made to chemical plant safety. The lessons we have learned from 
the Chemical Safety Board's investigations are contributing to 
the savings of lives of workers and ensuring the safety of our 
communities.
    While we have seen OSHA, the Mine Safety and Health 
Administration, and the EPA increasingly controlled by 
industries that they are supposed to be regulating, the 
Chemical Safety Board has been refreshingly unafraid to 
criticize and make recommendations to OSHA and to EPA. It is 
unfortunate, especially in the case of OSHA, that so many of 
these recommendations have gone unheeded.
    With that, I would like to recognize the senior Republican 
of the committee, Mr. McKeon of California.
    Mr. McKeon. Thank you, Mr. Chairman.
    With the Chemical Safety Board's having made public its 
report earlier this week on BP's Texas City tragedy, I thank 
you for convening today's hearing. Likewise, I appreciate each 
of the witnesses for joining us today and, in particular Ms. 
Rowe, for providing us what I expect will be a moving and 
important personal testimony.
    Refining is an inherently dangerous process, and industry 
has the responsibility to ensure that appropriate steps are 
taken to safeguard the men and women working in a refinery as 
in other workplaces around the country. For example, during the 
preparation for refinery maintenance or for a refinery restart, 
management of the facility has the obligation to follow the 
requirements of the process safety management standards.
    In March of 2005 and, frankly, in the months and years 
leading up to it, independent reports, including that of the 
Chemical Safety Board, have found that BP fell short in this 
regard, and far too many families have paid dearly as a result. 
The repeated accidents and the number of citations at the Texas 
City facility should have alerted management to the potential 
for imminent danger, but that clearly was not the case. In the 
wake of this tragedy, BP cannot be and, indeed, has not been 
given a pass for its failings. It has agreed to pay the largest 
fines in OSHA's history, and it has taken independent 
recommendations to heart. Now the company must commit the time, 
the energy and, yes, the resources necessary to fulfilling 
those recommendations.
    Mr. Cavaney, I was pleased to read in your prepared 
testimony that in the petroleum industry workplace safety is 
not just a matter of lip service. Rather, the industry is 
taking proactive and unprecedented steps to strengthen safety 
standards and recommended practices. I applaud your 
organization for taking the lead in keeping safety concerns at 
the forefront, and I am hopeful that, in the years to come, we 
will continue to see this type of forward thinking so we can 
prevent disasters instead of simply reacting to them.
    As we move through today's hearing, I will be interested to 
hear the witnesses' perspectives on additional steps that can 
be taken within the industry to bolster workplace safety even 
more so that we can ensure that a disaster like the one that 
took place 2 years ago in Texas City will never happen again. 
For example, many of my colleagues and I have long proposed the 
concept of engaging third party consultants who specialize in 
specific industrial processes and who can provide enhanced 
safety inspections. Had such a third party audit been 
undertaken, it is not out of the realm of possibility that BP 
would have done more to rectify ongoing problems of which it 
had been made aware. Even so, the responsibility lies squarely 
at the feet of BP. As I noted earlier, that is why the company 
has been held to account under the Occupational Safety and 
Health Act by agreeing to pay the single largest fine in the 
law's history.
    I know some have called for criminal investigation into 
this matter, and I believe OSHA's referral of this matter to 
the Department of Justice for a full criminal investigation is 
warranted. No corporation is above the law, and I believe the 
multi-pronged response to this tragedy has demonstrated just 
that.
    Mr. Chairman, once again, I thank you for bringing this 
committee together today to review the findings of the Chemical 
Safety Board's report and to gather the testimony from our 
other witnesses. The subject of today's hearing could not be 
more unfortunate, but I believe the work we have seen at the 
Federal level and in the industry demonstrates our collective 
commitment to ensuring that the tragedy of this magnitude never 
occurs again.
    Chairman Miller. Thank you very much.
    We are joined this morning by a distinguished panel of 
witnesses who I think will help us to better understand not 
only what tragically took place in Texas City, but also what we 
might do about it with respect to policy changes that I think 
are necessary and that I think would be very helpful.
    We will begin with the Chair of the Chemical Safety Board, 
Carolyn Merritt, who joined the board and became the Chair in 
August 2002. Chair Merritt's work on the Chemical Safety Board 
is involved in investigating process engineering and operations 
and management of environment and safety compliance systems in 
a wide range of manufacturing. Chairwoman Merritt was educated 
at Radford University with a degree in Analytical Chemistry.
    Retired Admiral Frank L. ``Skip'' Bowman is a longtime 
naval officer and former Director of the Naval Nuclear 
Propulsion Program. He is currently President and Chief 
Executive Officer of the Nuclear Energy Institute. He is a 
graduate of Duke University in 1966, and in 1973, he completed 
a dual master's program in nuclear engineering, naval 
architecture and marine engineering at the Massachusetts 
Institute of Technology.
    Eva Rowe is the daughter of James and Linda Rowe, contract 
workers who were killed in an explosion on March 23rd, 2005 at 
this British Petroleum refinery in Texas City, Texas. Ms. Rowe 
is working in Texas to spearhead the passage of the ``Remember 
the 15'' bill, which will improve worker health and safety 
standards in the petrochemical industry nationwide.
    Ms. Rowe, I want to again thank you very much for being a 
witness, and I cannot tell you how sorry we are about the loss 
of your parents but how proud they must be of you in continuing 
this fight to make sure that those workers who are placed in 
the same circumstance have greater margins of safety and 
conscious awareness of the threats to them than your parents 
were afforded at that time, and thank you so very, very much 
for being here.
    Red Cavaney is the President and Chief Executive Officer of 
the American Petroleum Institute. He served on the staff of 
U.S. Presidents Ronald Reagan, Gerald Ford and Richard Nixon. 
He is a 1964 NROTC graduate of economics and history at the 
University of Southern California and has served three tours of 
combat duty in Vietnam and was honorably discharged with the 
rank of U.S. Navy Lieutenant in 1969.
    Kim Nibarger is the Health and Safety Specialist for the 
United Steelworkers Health, Safety and the Environment 
Department. Mr. Nibarger is currently conducting an 
investigation of the BP Texas City accident for the United 
Steelworkers. He also serves as an accident investigator for 
the Steelworkers' Emergency Response Team. Mr. Nibarger has had 
17 years in refinery operations and has served as a member of 
the joint chair of the Steelworkers Joint Health and Safety 
Committee for 8 years. Mr. Nibarger is a graduate of Anacortes 
High School and attended the Lutheran Bible Institute and 
Western Washington University and Sky Valley College.
    Welcome to all of you. We look forward to your testimony. 
Your written statements will be placed in the record in their 
entirety, and you may proceed for 5 minutes. There will be a 
green light when you start your testimony. About 4 or 5 minutes 
later, there will be an orange light, which suggests that you 
might want to begin wrapping up, and then a red light when your 
time has expired, but be assured that we will allow you to 
complete sentences and complete thoughts before we cut you off, 
but as you can see from the attendance, there is an interest, 
and we want to make sure that there is time for questions.
    Chairwoman Merritt, welcome.

STATEMENT OF THE HON. CAROLYN W. MERRITT, CHAIR, U.S. CHEMICAL 
             SAFETY AND HAZARD INVESTIGATION BOARD

    Ms. Merritt. Thank you, Mr. Chairman, and good morning, and 
thank you to the members of the committee.
    Thank you for calling this important hearing. I am Carolyn 
Merritt, Chairman and CEO of the U.S. Chemical Safety and 
Hazard Investigation Board, an independent Federal agency that 
investigates major chemical accidents. My statements this 
morning are being made as an individual board member.
    On Tuesday, the CSB completed its investigation of the BP 
Texas City accident and issued a number of significant safety 
recommendations. On the afternoon of March 23rd, 2005, during 
the start-up of the refinery's ISOM unit, which is used to 
boost the octane in gasoline, a tower was overfilled with 
flammable liquid, flooding an antiquated blow-down drum and 
stack that vented directly into the atmosphere. In the space of 
a few minutes, the equivalent of a nearly full tanker truck of 
gasoline erupted and fell to the ground, vaporized, and 
exploded. Fifteen workers were killed, including James and 
Linda Rowe, whose tireless and courageous daughter, Eva, is 
here today. I know they would be very proud of the work that 
she is now embarking on.
    Mr. Chairman, the accident at BP was avoidable. In my view, 
it was the inevitable result of a series of actions by the 
company. Among other things, they cut budgets that affected 
training, staffing, maintenance, equipment modernization, and 
safety. They ignored the implications of previous incidents 
that were red warning flags. There was a broken safety culture 
at BP. Between 2002 and March 2005, an ominous series of 
internal reports, safety audits and surveys warned BP managers 
and executives about the deteriorating safety conditions at 
Texas City. However, their response was simply too little, too 
late.
    Our findings about BP's culture were similar to those of 
the independent Baker panel, which the CSB recommended and BP 
created and funded, and I thank Admiral Bowman and all of the 
other panel members for their outstanding efforts. The CSB 
found that the operators at Texas City were likely fatigued, 
having worked at least 29 straight days of 12-hour shifts. We 
recommended that the American Petroleum Institute and the 
United Steelworkers work together to develop consensus 
guidelines on preventing operator fatigue. All of the deaths 
and many of the injuries at Texas City occurred in or near 
trailers that were placed too close to the unsafe blow-down 
drum.
    In October of 2005, the CSB issued an urgent safety 
recommendation to the American Petroleum Institute to develop 
new trailer safety siting guidelines. Trailers, which are sited 
for convenience and can shatter during an explosion, simply 
have no place in harm's way within refineries and chemical 
facilities. We also issued recommendations to both API and 
OSHA, aimed at eliminating unsafe blow-down drums from U.S. 
refineries and chemical plants in favor of safer alternatives, 
such as flare systems. We urge API and OSHA to move quickly and 
aggressively on these issues and to take concrete steps right 
away to improve refinery safety.
    Finally, the CSB found that regulatory oversight of this 
refinery was ineffective. In recent years, OSHA has focused its 
inspection on workplaces with high injury rates, but these 
rates do not predict the likelihood of a catastrophic process 
accident at a facility. Better measures than injury rates are 
necessary, and thus, we recommended that API collaborate with 
the steelworkers to develop new safety indicators.
    Like thousands of other petrochemical plants, this refinery 
is regulated under OSHA's Process Safety Management standard 
issued in 1992. Rigorous implementation and enforcement of this 
rule, including its preventative maintenance and incident 
investigation requirements, would almost certainly have 
prevented this tragedy. However, despite 23 workers being 
killed at the Texas City refinery over the 30 years prior to 
this accident, OSHA did not conduct any comprehensive planned 
process safety inspections at this troubled facility. In fact, 
between 1985 and March of 2005, OSHA collected only $77,000 in 
fines from this refinery. Clearly, such penalties have little 
impact on huge corporations like Amoco and BP. Furthermore, our 
investigation found that in the 10 years from 1995 to 2005, 
Federal OSHA only conducted nine comprehensive safety 
inspections nationwide and none at all in the refinery sector. 
OSHA simply lacked enough trained inspectors to conduct these 
audits.
    The CSB report called on OSHA to identify those facilities 
and the greatest risk of a catastrophic accident and then to 
conduct comprehensive inspections of those facilities. We also 
recommended that OSHA hire, develop and train specialized 
inspectors for the oil and chemical sectors.
    Mr. Chairman, our vision is imminently achievable, 
particularly if OSHA receives appropriate support, resources 
and encouragement from Congress. Thank you, Mr. Chairman, for 
the opportunity to testify this morning and for your 
longstanding support of our agency.
    [The statement of Ms. Merritt follows:]

  Prepared Statement of Hon. Carolyn W. Merritt, Chair, U.S. Chemical 
                 Safety and Hazard Investigation Board

    Mr. Chairman and Members of the Committee: thank you for convening 
this important hearing on the tragic explosion at BP Texas City in 
2005. I am Carolyn Merritt, Chairman of the U.S. Chemical Safety Board, 
an independent, non-regulatory federal agency patterned on the National 
Transportation Safety Board. We investigate the root causes of chemical 
accidents and develop new safety recommendations based on our findings.
    On Tuesday, we completed our investigation of the BP Texas City 
accident and issued a number of new national safety recommendations. To 
conduct this investigation, we interviewed 370 witnesses, reviewed more 
than 30,000 documents, and did extensive equipment testing and computer 
modeling. BP cooperated with the investigation, furnished documents and 
interviews on a voluntary basis, and committed to widespread safety 
improvements and investments following the accident.
    Mr. Chairman, two years ago tomorrow, the BP Texas City Refinery, 
the third largest in the United States, was the site of the worst 
workplace accident in this country since 1990. Fifteen people died, 
including James and Linda Rowe, whose courageous daughter is sitting 
here this morning at the witness table. One hundred and eighty others 
were hurt, many with severe and disabling injuries.
    The explosion occurred during unit startup, one of the most 
hazardous periods in a refinery. A distillation tower was overfilled 
with liquid, flooding an antiquated blowdown drum and stack that vented 
directly to the atmosphere. Flammable liquid--nearly the equivalent of 
a full tanker truck of gasoline--erupted onto the plant grounds, 
vaporized, and exploded.
    In our final report, we concluded that organizational and safety 
deficiencies at all levels of the BP Corporation caused this terrible 
accident. We found widespread safety culture deficiencies both at the 
Texas City Refinery and at higher levels of BP.
    Over many years, a combination of corporate cost-cutting, 
production pressures, and a failure to invest had eroded process safety 
at this refinery. Between 2002 and March 2005, an ominous series of 
internal reports, surveys, and safety audits warned BP managers and 
executives about the deteriorating conditions in Texas City. However, 
their response was simply too little, too late. Some additional 
investments were made, but they did not address the core process safety 
and maintenance problems at the refinery. And further budget cuts were 
enacted, even as late as early 2005.
    Budget considerations forced reductions in training, personnel, and 
the maintenance and modernization of critical equipment. These 
reductions had adverse effects on safety and set the stage for the 
March 2005 disaster.
    Our investigation also revealed a variety of technical factors that 
were among the causes of the accident. Specifically, we examined the 
unsafe placement of trailers in the refinery, and the absence of a 
modern flare system for controlling flammable releases.
    All the deaths and many injuries occurred in or near trailers that 
were as close as 121 feet from the unsafe blowdown drum. The 
investigation revealed that trailers are more vulnerable than predicted 
by available industry guidance. People inside trailers were injured as 
far as 479 feet away from the blowdown drum, and trailers nearly 1000 
feet away sustained damage. A human being is more likely to be injured 
or killed inside a trailer--which can shatter during an explosion--than 
if he is standing in the open air. For that reason, occupied trailers 
have no place near hazardous process areas of refineries and chemical 
plants.
    In October 2005, we issued an urgent safety recommendation to the 
American Petroleum Institute, whose president is here today, to develop 
new safety guidance preventing trailers from being placed in harm's way 
in oil and chemical plants. Trailers are portable by definition and can 
easily be moved to safer locations.
    We also issued recommendations in October 2006 to both API and OSHA 
aimed at eliminating unsafe blowdown drums from U.S. refineries and 
chemical plants in favor of safer alternatives, such as flare systems. 
A flare system could have prevented or greatly minimized the effects of 
the accident in Texas City.
    We urge API and OSHA to move quickly and aggressively on these 
issues and to take steps that will improve process safety in concrete 
and measurable ways.
    In addition, our investigation found that errors and procedural 
deviations occurred during the startup on March 23. We performed a 
human factors analysis to understand the causes for these mistakes and 
deviations. That analysis showed that unit operators in Texas City were 
likely fatigued, having worked at least 29 straight days of 12-hour 
shifts.
    Fatigue prevention regulations have been developed for aviation and 
other transportation sectors, but there are no fatigue prevention 
guidelines that are widely used and accepted in the oil and chemical 
sector. Our report recommends that API and the United Steelworkers work 
together to develop such consensus guidelines.
    We also found shortcomings with control panel design, staffing, 
supervision, training, and communication. Surprisingly, we found that 
abnormal startups were common in this particular unit, with 18 out of 
19 exhibiting abnormal levels and pressures. BP did not investigate 
these previous near-misses and did not install modern instrumentation 
on the distillation tower. Furthermore, much of the instrumentation 
that was present was not working due to flaws in preventative 
maintenance.
    The BP Texas City Refinery is regulated under OSHA's Process Safety 
Management (PSM) standard, which was issued in 1992 as a result of 
chemical accident provisions included in the 1990 Clean Air Act 
Amendments. The PSM standard requires covered facilities to implement 
14 specific management elements to prevent catastrophic releases of 
hazardous substances.
    Our investigation found numerous requirements of the standard were 
not being effectively performed in Texas City--such as incident 
investigation, preventative maintenance, management of change, and 
hazard analysis. Required safety studies were overlooked for years. For 
example, a required relief valve study that, if done, could have helped 
prevent the accident was 13 years overdue on the day of the explosion.
    If the Process Safety Management standard had been thoroughly 
implemented at the refinery, as required by federal regulations, this 
accident likely would not have occurred.
    BP, industry, and OSHA are now focused on measuring and controlling 
lost-time injuries, which are a fundamentally backward-looking 
indicator. Injury rates do not predict the likelihood of a catastrophic 
process accident at a facility.
    I know from personal experience as an industry safety executive in 
the 1990's that when the PSM regulation was established, it received 
great attention and investment throughout much of industry. But today, 
CSB investigations as well as my discussions with industry managers 
indicate that many companies have reduced their focus on these critical 
safety requirements. Without strong OSHA enforcement, PSM will devolve 
into essentially a voluntary program. Almost invariably, when we 
conduct an investigation of a major chemical catastrophe, we find that 
both PSM implementation and PSM enforcement were lacking.
    Federal regulators did not conduct any comprehensive, planned 
process safety inspections at the Texas City Refinery. In fact, our 
investigation found that in the ten years from 1995 to 2005, federal 
OSHA only conducted nine such inspections anywhere in the country, and 
none in the refining sector. And the Texas City Refinery was an 
extremely dangerous workplace by any objective standard. In the 30 
years prior to March 23, 2005, twenty-three workers had died there in 
workplace accidents. Counting the 15 workers who died on March 23 and 
another one who died there more recently, there have been a total of 39 
deaths in that one facility.
    OSHA did conduct unplanned inspections of the Texas City Refinery 
in response to accidents, complaints, or referrals. But these unplanned 
inspections are typically narrower in scope and shorter than planned 
inspections. Proposed OSHA fines during the twenty years preceding the 
March 2005 disaster--a period when ten fatalities occurred at the 
refinery--totaled $270,255; net fines collected after negotiations 
totaled $77,860. Following the March 2005 explosion, OSHA issued the 
largest penalty in its history to BP, over $21 million for more than 
300 egregious and willful violations.
    Our report concluded OSHA has focused its inspections for a number 
of years on facilities that have injury rates. While OSHA is to be 
commended for trying to reduce these rates, the Chemical Safety Board 
believes that OSHA should also pay increased attention to preventing 
less frequent, but catastrophic, process safety incidents such as the 
one at Texas City.
    When the PSM standard was created, OSHA had envisioned a highly 
technical, complex, and lengthy inspection process for regulated 
facilities, called a Program Quality Verification or PQV inspection. 
The inspections would take weeks or months at each facility and would 
be conducted by a select, well-trained, and experienced team. Indeed, 
thoroughly inspecting a 1,200-acre chemical complex with 30 major 
process units--like the Texas City Refinery--is no small undertaking 
and requires at least that level of effort.
    On Tuesday, our report called on OSHA to identify those facilities 
at the greatest risk of a catastrophic accident and then to conduct 
comprehensive inspections of those facilities. We also recommended that 
OSHA hire or develop new, specialized inspectors and expand the PSM 
training curriculum at its National Training Institute.
    Mr. Chairman, our vision is eminently achievable, particularly if 
OSHA receives appropriate support, resources, and encouragement from 
Congress. Other safety authorities have managed to do what we are 
proposing. For example, the U.K. Health and Safety Executive, which 
oversees a much smaller oil and chemical industry than exists in the 
U.S., has 105 inspectors for high-hazard facilities; each covered 
facility in the U.K. is thoroughly inspected every five years.
    In your own district of Contra Costa, Mr. Chairman, the county has 
its own industrial safety ordinance and inspects each covered oil and 
chemical facility every three years. A county staff of five engineers 
performs an average of 16 inspections each year. So this one county, 
which is particularly enlightened, seems to be outpacing the rest of 
the nation.
    Mr. Chairman, rules already on the books would likely have 
prevented the tragedy in Texas City. But if a company is not following 
those rules, year-in and year-out, it is the ultimate responsibility of 
the federal government to enforce good safety practices before more 
lives are lost.
    Congress showed tremendous vision in 1990 when it reauthorized the 
Clean Air Act and made major accident prevention one of its 
cornerstones. However, I am concerned that since 1990, there has not 
been sufficient attention and investment in these programs to fully 
realize that vision. The tragedy in Texas City should cause us all to 
reflect and to resolve to do better in the future.
    Thank you, Mr. Chairman, for the opportunity to testify this 
morning and thank you also for your longstanding support of our agency 
and its mission.
                                 ______
                                 
    Chairman Miller. Thank you.
    Admiral Bowman.

   STATEMENT OF ADM FRANK ``SKIP'' BOWMAN (RET.), PRESIDENT, 
         NUCLEAR SAFETY INSTITUTE, MEMBER, BAKER PANEL

    Admiral Bowman. Thank you very much, Mr. Chairman and 
distinguished members of the panel, for allowing me the 
opportunity to testify today.
    Mr. Chairman, as you noted, I was one of eleven members of 
the BP's U.S. refineries' independent safety review panel, 
which was chaired by former Secretary of State Jim Baker. 
First, let me say I regret the circumstances that spawned our 
panel, and that is the catastrophic accident that the chairman 
just discussed that occurred at the BP Texas City refinery on 
March 23rd, 2005. I wish to extend my personal sympathy to all 
of the families, colleagues and friends of those who perished 
in that accident, including Ms. Eva Rowe, who is here with us 
today. I also wish to extend my best wishes for continued 
recovery to those who were injured in that accident.
    As you just heard, in August 2005, the Chemical Safety 
Board urgently recommended that BP establish and form an 
independent panel to, quote/unquote, ``assess and report on the 
effectiveness of BP North America's corporate oversight of 
safety management systems at its refineries and its corporate 
safety culture.'' That same urgent recommendation called for a 
panel with a diverse makeup, including experts in corporate 
culture organizational behavior and experts from other high-
risk sectors such as nuclear energy and the undersea Navy.
    I served on this panel, and I suspect I was selected to 
serve because of my career in the United States Navy and my 
current position associated with the commercial nuclear energy 
industry, and I suspect that Chairman Merritt included those 
two requests at least partly because of the significantly good 
and exemplary process safety record of those two organizations.
    I served on this panel with 10 very distinguished, 
dedicated and hardworking members. Each member brought to the 
panel a unique set of skills and expertise, and together, we 
fulfilled the stated objective of the Chemical Safety Board.
    I am hear today in my capacity as a member of that panel. 
In both my written statement and my oral testimony, I will rely 
very heavily on the executive summary from the panel's report, 
and I do not intend to interpret or add to that, to what the 
panel said in its report, which I think stands on its own. 
Instead, sir, I would highlight selected portions of it that 
may be of interest to you and to your committee.
    Mr. Chairman, I ask for your approval to include in the 
record the panel's entire report along with my written 
statement.
    Chairman Miller. Without objection. Thank you.
    [The information follows:]

 Prepared Statement of ADM Frank ``Skip'' Bowman (Retired), President, 
             Nuclear Safety Institute, Member, Baker Panel

Introduction
    Mr. Chairman and distinguished members of the Committee, I am 
Admiral Frank L. ``Skip'' Bowman, U.S. Navy (retired). I serve as 
president and chief executive officer of the Nuclear Energy Institute. 
In addition, and of particular relevance to the hearings by the 
Committee, I also served as one of the 11 members on the BP U.S. 
Refineries Independent Safety Review Panel, which was chaired by former 
Secretary of State James A. Baker, III. In the remainder of this 
statement, I will refer to that panel as ``the Panel.''
    First, let me say that I regret the circumstances that bring us 
here today--the catastrophic accident that occurred at the BP Texas 
City refinery on March 23, 2005. Tomorrow will be the second 
anniversary of that tragic event. I want to extend my sympathy to all 
the families, colleagues and friends of those who perished in that 
accident, including Eva Rowe, who is here today and who lost both of 
her parents in the accident. I also want to extend my best wishes for 
continued recovery to those who were injured in the accident.
    In August 2005, the U.S. Chemical Safety and Hazard Investigation 
Board, which I will refer to as the ``CSB,'' issued to the BP Global 
Executive Board of Directors an urgent recommendation to form an 
independent panel to ``assess and report on the effectiveness of BP 
North America's corporate oversight of safety management systems at its 
refineries and its corporate safety culture.'' That same urgent 
recommendation called for a panel with a diverse makeup, including 
experts in corporate culture, organizational behavior, and human 
factors; and experts from other high risk sectors such as nuclear 
energy and the undersea navy.
    I was selected to serve on the Panel because of my background and 
experience with the nuclear navy. After graduating from Duke University 
in 1966, I immediately began my naval career, which spanned almost 39 
years. In 1973, I completed a dual masters program in nuclear 
engineering and naval architecture/marine engineering at Massachusetts 
Institute of Technology. During the course of my naval career, I served 
aboard six ships, five of which were nuclear submarines, and I 
commanded the submarine USS City of Corpus Christi and the tender USS 
Holland. A flag officer since 1991, I also served as Deputy Director of 
Operations, Joint Staff; Director for Political-Military Affairs, Joint 
Staff; and Chief of Naval Personnel. I served as Director, Naval 
Nuclear Propulsion from 1996 to 2004, during which time I held a joint 
appointment as Deputy Administrator for Naval Reactors in the National 
Nuclear Security Administration of the Department of Energy. In that 
position I was responsible for the operation of more than 100 nuclear 
reactors aboard Navy aircraft carriers and submarines and in its 
training and research facilities. Throughout its history--including 
during my tenure--the nuclear navy's safety record has been exemplary. 
Since 1953, U.S. nuclear warships have logged over 128 million miles in 
defense of our country.
    In my role as Director, Naval Nuclear Propulsion, I testified 
before the House Science Committee investigating the Columbia Space 
Shuttle accident on the organizational culture of safety that has made 
Naval Reactors a safety success.
    I served on the Panel with ten distinguished, dedicated, and hard-
working members. Each member brought to the Panel a unique set of 
skills and expertise, and together I believe we fulfilled the stated 
objective of the CSB in having a diverse group with expertise in the 
different areas called for by the CSB's urgent recommendation. As 
called for by our charter, the Panel's review was thorough and 
independent. The Panel announced its final report in Houston on January 
16, 2007, approximately two months ago.
    I am here today in my capacity as a former member of the Panel. In 
that capacity, I will highlight for the benefit of the Committee 
certain aspects of the Panel's report. In particular, I will rely 
heavily on the executive summary from the Panel report. In making my 
comments today, I do not intend to interpret or add to what the Panel 
said in its report, which stands on its own. Instead, I intend to 
highlight selected portions of the report that may be of interest to 
this Committee. Mr. Chairman, with your permission, I will submit a 
copy of the Panel's entire report for the record. The Panel's report 
can also be accessed at the Panel's website, which may be found at 
http://www.safetyreviewpanel.com.
    Before highlighting certain aspects of the Panel's report, let me 
quote two portions from the Panel's statement that preceded its report:
    First, the very first sentence: ``Process safety accidents can be 
prevented.''
    Second, the following paragraph:
    Preventing process accidents requires vigilance. The passing of 
time without a process accident is not necessarily an indication that 
all is well and may contribute to a dangerous and growing sense of 
complacency. When people lose an appreciation of how their safety 
systems were intended to work, safety systems and controls can 
deteriorate, lessons can be forgotten, and hazards and deviations from 
safe operating procedures can be accepted. Workers and supervisors can 
increasingly rely on how things were done before, rather than rely on 
sound engineering principles and other controls. People can forget to 
be afraid.
    Let me move now to highlight selected aspects of the Panel's review 
and report.
Background of the Panel's Review
    On March 23, 2005, the BP Texas City refinery experienced one of 
the most serious U.S. workplace disasters of the past two decades, 
resulting in 15 deaths, more than 170 injuries, and significant 
economic losses. The CSB, an independent federal agency charged with 
investigating industrial chemical accidents, promptly began an accident 
investigation.
    On August 17, 2005, the CSB issued an urgent safety recommendation 
to the BP Global Executive Board of Directors that it commission an 
independent panel to assess and report on the effectiveness of BP North 
America's corporate oversight of safety management systems at its 
refineries and its corporate safety culture. In making its urgent 
recommendation, the CSB noted that the BP Texas City refinery had 
experienced two other fatal safety incidents in 2004, a major process-
related hydrogen fire on July 28, 2005, and another serious incident on 
August 10, 2005. Based on these incidents and the results of the first 
few months of its preliminary investigation, the CSB cited serious 
concerns about:
    <bullet> the effectiveness of the safety management system at the 
BP Texas City refinery,
    <bullet> the effectiveness of BP North America's corporate safety 
oversight of its refining facilities, and
    <bullet> a corporate safety culture that may have tolerated serious 
and longstanding deviations from good safety practice.
    BP embraced the urgent recommendation of the CSB to form an 
independent panel. In a press release issued on August 17, 2005, the 
company noted that the Texas City explosion was the worst tragedy in 
BP's recent history and that it would ``do everything possible to 
ensure nothing like it happens again.''
    On October 24, 2005, BP announced the formation of the BP U.S. 
Refineries Independent Safety Review Panel. Former Secretary of State 
James A. Baker, III chaired the Panel. In addition to Secretary Baker 
and myself, the Panel included the following members:
    <bullet> Glenn Erwin, who monitors refinery safety nationwide for 
the United Steel, Paper and Forestry, Rubber, Manufacturing, Energy, 
Allied Industrial and Service Workers International Union;
    <bullet> Slade Gorton, former U.S. Senator from Washington State 
and member of the 9/11 Commission;
    <bullet> Dennis C. Hendershot, Principal Process Safety Specialist 
at Chilworth Technologies, Inc., and a Staff Consultant to the American 
Institute of Chemical Engineers' Center for Chemical Process Safety;
    <bullet> Nancy G. Leveson, Professor of Aeronautics and 
Astronautics and Professor of Engineering Systems at the Massachusetts 
Institute of Technology;
    <bullet> Sharon Priest, former Arkansas Secretary of State and 
currently the Executive Director of the Downtown Partnership, a non-
profit organization devoted to developing downtown Little Rock, 
Arkansas;
    <bullet> Isadore `Irv' Rosenthal, former board member of the CSB 
and current Senior Research Fellow at the Wharton Risk Management and 
Decision Processes Center;
    <bullet> Paul V. Tebo, former Vice President for Safety, Health, 
and the Environment of DuPont;
    <bullet> Douglas A. Wiegmann, Director of the Human Factors and 
Patient Safety Research Program within the Division of Cardiovascular 
Surgery at Mayo Clinic in Rochester, Minnesota; and
    <bullet> L. Duane Wilson, former Vice President, Refining, 
Marketing, Supply & Transportation--Fuels Technology of ConocoPhillips.
The Panel's Review
            Purposes and Limitations
    It is important that the Committee understand the primary 
purposes--and also some of the primary limitations--of the Panel's 
work.
    The Panel's charter directed it to make a thorough, independent, 
and credible assessment of the effectiveness of BP's corporate 
oversight of safety management systems at its five U.S. refineries and 
its corporate safety culture. The charter further directed the Panel to 
produce a report examining and recommending needed improvements to BP's 
corporate safety oversight, corporate safety culture, and corporate and 
site safety management systems. The charter did not contemplate that 
the Panel review environmental issues or general site security issues.
    Significantly, the charter also provided that the Panel should not 
``seek to affix blame or apportion responsibility for any past event'' 
and ``should avoid duplicating the efforts of the CSB to determine the 
specific root causes of the incident at Texas City on March 23, 2005.'' 
Both the CSB and BP have investigated the March 23, 2005 accident at 
Texas City. BP issued its own investigation report on the Texas City 
accident in December 2005. The CSB issued the final report on its 
investigation on March 20, 2007, just two days ago.
    Since the Panel was not charged to conduct an investigation into 
the causes of the Texas City accident and did not seek to affix blame 
or apportion responsibility for that accident, the Panel's focus and 
the scope of its review differed from that of the CSB and from the 
civil litigation relating to that accident. The Panel's review related 
to all five of BP's U.S. refineries, not just the Texas City refinery. 
The Panel examined BP's corporate safety oversight, corporate safety 
culture, and its process safety management systems and not the Texas 
City accident or any particular incident. The Panel's examination also 
was not limited to the period preceding the Texas City accident.
    Rather than attempting to determine the root cause of, or 
culpability for, any particular incident, the Panel wanted to 
understand BP's values, beliefs, and underlying assumptions about 
process safety, corporate safety oversight, and safety management 
systems in relation to all of BP's U.S. refineries. The Panel focused 
on how these values, beliefs, and underlying assumptions interacted 
with the company's corporate structure, management philosophy, and 
other systems that operated within that structure to affect the control 
or management of process hazards in these refineries. The Panel sought 
to understand why observed deficiencies in process safety performance 
existed at BP's U.S. refineries so that the Panel could make 
recommendations that can enable BP to improve performance at all its 
refineries. In effect, the Panel's review looked back primarily as a 
basis for looking forward to improve future process safety performance 
and to reduce the likelihood of accidents such as the Texas City 
tragedy.
    While the Panel necessarily directed to BP the Panel's 
recommendations contained in its report, the Panel believed that a 
broader audience including companies in refining, chemicals, and other 
process industries should carefully consider the Panel's 
recommendations.
The Panel's Activities
    The Panel developed and followed a multifaceted plan to accomplish 
the mandate of its charter and the CSB's urgent recommendation. The 
plan included visits by the Panel and its staff to BP's U.S. 
refineries; public meetings that the Panel conducted in the local 
communities where the refineries are located; interviews of refinery-
level personnel and corporate-level managers; process safety reviews 
that technical consultants conducted at BP's U.S. refineries; a process 
safety culture survey conducted among the workforce at BP's U.S. 
refineries; frequent interaction with BP representatives, including 
periodic briefings by representatives of BP; a targeted document 
review; and meetings with other companies relating to their management 
of process safety.
            Focus on Process Safety
    The Panel's report focused on process safety. Not all refining 
hazards are caused by the same factors or involve the same degree of 
potential damage. Personal or occupational safety hazards give rise to 
incidents--such as slips, falls, and vehicle accidents--that primarily 
affect one individual worker for each occurrence. Process safety 
hazards can give rise to major accidents involving the release of 
potentially dangerous materials, the release of energy (such as fires 
and explosions), or both. Process safety incidents can have 
catastrophic effects and can result in multiple injuries and 
fatalities, as well as substantial economic, property, and 
environmental damage. Process safety refinery incidents can affect 
workers inside the refinery and members of the public who reside 
nearby. Process safety in a refinery involves the prevention of leaks, 
spills, equipment malfunctions, over-pressures, excessive temperatures, 
corrosion, metal fatigue, and other similar conditions. Process safety 
programs focus on the design and engineering of facilities, hazard 
assessments, management of change, inspection, testing, and maintenance 
of equipment, effective alarms, effective process control, procedures, 
training of personnel, and human factors. The Texas City tragedy in 
March 2005 was a process safety accident.
    The Panel believed that its charter and the CSB's August 2005 
urgent recommendation required this focus on process safety.
The Panel's Findings
    The Panel focused on deficiencies relating to corporate safety 
culture, process safety management systems, and performance evaluation, 
corrective action, and corporate oversight.
            Qualifications Relating to the Panel's Findings
    The Panel's charter called for assessments of effectiveness and 
recommendations for improvement, not for findings related to legal 
compliance. In making its findings and recommendations, the Panel's 
objective was excellence in process safety performance, not legal 
compliance. As a result, the Panel's report and specifically the 
Panel's findings were not intended for use in legal proceedings to 
which BP is or may become a party. Rather, the Panel's findings 
provided a basis for recommendations to BP for making improvements in 
BP's corporate safety culture, process safety management systems, and 
corporate safety oversight. The Panel's report focused primarily on 
identified deficiencies that might be corrected through the 
implementation of its recommendations.
    The Panel often based its findings and recommendations on general 
principles of industry best practices or other standards for reducing 
process risks. The Panel believed that observance of these standards 
should result in improved safety performance even though many of these 
standards do not necessarily have legal effect. The Panel's findings 
were based not only on the information developed during the course of 
the Panel's review, but also on the collective experience and expertise 
of the Panel members.
    Finally, the Panel's findings were based on its assessment that 
occurred primarily during 2006. The Panel's report acknowledged that 
since the Texas City accident in March 2005, BP has undertaken or 
announced a number of measures, including dedicating significant 
resources and personnel, that are intended to improve the process 
safety performance at BP's five U.S. refineries. Taken at face value, 
these measures represent a major commitment to an improved process 
safety regime.
Summary of the Panel's Findings
    The findings of the Panel are summarized below under three 
headings: Corporate Safety Culture; Process Safety Management Systems; 
and Performance Evaluation, Corrective Action, and Corporate Oversight.
            Corporate Safety Culture
    A positive safety culture is important for good process safety 
performance. In its report, the Panel made findings about BP's process 
safety leadership, employee empowerment, resources and positioning of 
process safety capabilities, incorporation of process safety into 
management decision-making, and the process safety cultures at BP's 
five U.S. refineries.
    Process safety leadership. The Panel believed that leadership from 
the top of the company, starting with the Board and going down, is 
essential. In the Panel's opinion, it is imperative that BP's 
leadership set the process safety ``tone at the top'' of the 
organization and establish appropriate expectations regarding process 
safety performance. Based on its review, the Panel believed that BP had 
not provided effective process safety leadership and had not adequately 
established process safety as a core value across all its five U.S. 
refineries. While BP had an aspirational goal of ``no accidents, no 
harm to people,'' BP had not provided effective leadership in making 
certain its management and U.S. refining workforce understood what was 
expected of them regarding process safety performance. BP has 
emphasized personal safety in recent years and has achieved significant 
improvement in personal safety performance, but BP did not emphasize 
process safety. BP mistakenly interpreted improving personal injury 
rates as an indication of acceptable process safety performance at its 
U.S. refineries. BP's reliance on this data, combined with an 
inadequate process safety understanding, created a false sense of 
confidence that BP was properly addressing process safety risks. The 
Panel further found that process safety leadership appeared to have 
suffered as a result of high turnover of refinery plant managers.
    During the course of its review, the Panel observed a shift in BP's 
understanding of process safety. As discussed in the Panel report, BP 
has undertaken a number of measures intended to improve process safety 
performance. The Panel also recognized that BP executive management and 
corporate-level management have more visibly demonstrated their 
commitment to process safety in recent months.
    Employee empowerment. A good process safety culture requires a 
positive, trusting, and open environment with effective lines of 
communication between management and the workforce, including employee 
representatives. The Panel found that BP's Cherry Point, Washington 
refinery has a very positive, open, and trusting environment. BP's 
Carson, California refinery appears to have a generally positive, 
trusting, and open environment with effective lines of communication 
between management and the workforce, including employee 
representatives. The Panel found that at BP's Texas City, Texas, 
Toledo, Ohio, and Whiting, Indiana refineries, BP had not established a 
positive, trusting, and open environment with effective lines of 
communication between management and the workforce, although the safety 
culture appeared to be improving at Texas City and Whiting.
    Resources and positioning of process safety capabilities. BP has 
not always ensured that it identified and provided the resources 
required for strong process safety performance at its U.S. refineries. 
Despite having numerous staff at different levels of the organization 
that support process safety, the Panel found that BP did not have a 
designated, high-ranking leader for process safety dedicated to its 
refining business. During the course of its review, the Panel did not 
develop or identify sufficient information to conclude whether BP ever 
intentionally withheld resources on any safety-related assets or 
projects for budgetary or cost reasons. The Panel believed, however, 
that the company did not always ensure that adequate resources were 
effectively allocated to support or sustain a high level of process 
safety performance. In addition, BP's corporate management mandated 
numerous initiatives that applied to the U.S. refineries and that, 
while well-intentioned, overloaded personnel at BP's U.S. refineries. 
This ``initiative overload'' may have undermined process safety 
performance at the U.S. refineries. In addition, the Panel found that 
operations and maintenance personnel in BP's five U.S. refineries 
sometimes worked high rates of overtime, and this could impact their 
ability to perform their jobs safely and increases process safety risk. 
BP has announced plans to increase both funding and hiring at its U.S. 
refineries.
    Incorporation of process safety into management decision-making. 
The Panel also found that BP did not effectively incorporate process 
safety into management decision-making. BP tended to have a short-term 
focus, and its decentralized management system and entrepreneurial 
culture have delegated substantial discretion to U.S. refinery plant 
managers without clearly defining process safety expectations, 
responsibilities, or accountabilities. In addition, while 
accountability is a core concept within BP for driving desired conduct, 
the Panel found that BP had not demonstrated that it had effectively 
held executive management and refining line managers and supervisors, 
both at the corporate level and at the refinery level, accountable for 
process safety performance at its five U.S. refineries. The Panel 
observed in its report that it appeared to the Panel that BP now 
recognizes the need to provide clearer process safety expectations.
    Process safety cultures at BP's U.S. refineries. The Panel's report 
found that BP had not instilled a common, unifying process safety 
culture among its U.S. refineries. Each refinery had its own separate 
and distinct process safety culture. While some refineries were far 
more effective than others in promoting process safety, significant 
process safety culture issues existed at all five U.S. refineries, not 
just Texas City. Although the five refineries did not share a unified 
process safety culture, each exhibited some similar weaknesses. The 
Panel found instances of a lack of operating discipline, toleration of 
serious deviations from safe operating practices, and apparent 
complacency toward serious process safety risks at each refinery.
            Process Safety Management Systems
    The Panel's report also discussed findings relating to the 
effectiveness of process safety management systems that BP utilized for 
its five U.S. refineries. These findings related to BP's process risk 
assessment and analysis, compliance with internal process safety 
standards, implementation of external good engineering practices, 
process safety knowledge and competence, and general effectiveness of 
BP's corporate process safety management system.
    Process risk assessment and analysis. While the Panel found that 
all of BP's U.S. refineries had active programs to analyze process 
hazards, the system as a whole did not ensure adequate identification 
and rigorous analysis of those hazards. The Panel's examination also 
indicated that the extent and recurring nature of this deficiency was 
not isolated, but systemic.
    Compliance with internal process safety standards. The Panel's 
technical consultants and the Panel observed that BP does have internal 
standards and programs for managing process risks. However, the Panel's 
examination found that BP's corporate safety management system did not 
ensure timely compliance with internal process safety standards and 
programs at BP's five U.S. refineries. This finding related to several 
areas that were addressed by BP internal standards: rupture disks under 
relief valves; equipment inspections; critical alarms and emergency 
shut-down devices; area electrical classification; and near miss 
investigations.
    Implementation of external good engineering practices. The Panel 
also found that BP's corporate safety management system did not ensure 
timely implementation of external good engineering practices that 
support and could improve process safety performance at BP's five U.S. 
refineries. The Panel believed that such practices play an important 
role in the management of process safety in refineries operating in the 
United States.
    Process safety knowledge and competence. Although many members of 
BP's technical and process safety staff have the capabilities and 
expertise needed to support a sophisticated process safety effort, the 
Panel believed that BP's system for ensuring an appropriate level of 
process safety awareness, knowledge, and competence in the organization 
relating to its five U.S. refineries had not been effective in a number 
of respects. First, BP had not effectively defined the level of process 
safety knowledge or competency required of executive management, line 
management above the refinery level, and refinery managers. Second, BP 
had not adequately ensured that its U.S. refinery personnel and 
contractors have sufficient process safety knowledge and competence. 
The information that the Panel reviewed indicated that process safety 
education and training needed to be more rigorous, comprehensive, and 
integrated. Third, the Panel found that at most of BP's U.S. 
refineries, the implementation of and over-reliance on BP's computer-
based training contributed to inadequate process safety training of 
refinery employees.
    Effectiveness of BP's corporate process safety management system. 
BP has an aspirational goal and expectation of ``no accidents, no harm 
to people, and no damage to the environment,'' and is developing 
programs and practices aimed at addressing process risks. These 
programs and practices include the development of new standards, 
engineering technical practices, and other internal guidance, as well 
as the dedication of substantial resources. Despite these positive 
changes, the Panel's examination indicated that BP's corporate process 
safety management system did not effectively translate corporate 
expectations into measurable criteria for management of process risk or 
define the appropriate role of qualitative and quantitative risk 
management criteria.
    The findings above, together with other information that the Panel 
obtained during its examination, lead the Panel to conclude that 
material deficiencies in process safety performance existed at BP's 
five U.S. refineries. Some of these deficiencies are common among 
multiple refineries, and some of the deficiencies appeared to relate to 
legacy systems in effect prior to BP's acquisition of the refineries. 
(BP acquired four of its five U.S. refineries through mergers with 
Amoco in 1998 and ARCO in 2000.)
    BP appears to have established a relatively effective personal 
safety management system by embedding personal safety aspirations and 
expectations within the U.S. refining workforce. However, the Panel's 
report concluded that BP had not effectively implemented its corporate-
level aspirational guidelines and expectations relating to process 
risk. Therefore, the Panel found that BP had not implemented an 
integrated, comprehensive, and effective process safety management 
system for its five U.S. refineries.
    Panel observations relating to process safety management practices. 
The Panel observed several positive notable practices or, in the case 
of BP's process safety minimum expectation program, an excellent 
process safety management practice. The notable practices relate to 
creation of an engineering authority at each refinery and several other 
refinery-specific programs that are described in more detail in the 
Panel's report.
            Performance Evaluation, Corrective Action, and Corporate 
                    Oversight
    Maintaining and improving a process safety management system 
requires the periodic evaluation of performance and the correction of 
identified deficiencies. As discussed in the Panel's report, 
significant deficiencies existed in BP's site and corporate systems for 
measuring process safety performance, investigating incidents and near 
misses, auditing system performance, addressing previously identified 
process safety-related action items, and ensuring sufficient management 
and board oversight. Many of the process safety deficiencies were not 
new but were identifiable to BP based upon lessons from previous 
process safety incidents, including process incidents that occurred at 
BP's facility in Grangemouth, Scotland in 2000.
    Measuring process safety performance. BP primarily used injury 
rates to measure process safety performance at its U.S. refineries 
before the Texas City accident. Although BP was not alone in this 
practice, BP's reliance on injury rates significantly hindered its 
perception of process risk. BP tracked some metrics relevant to process 
safety at its U.S. refineries. Apparently, however, BP did not 
understand or accept what this data indicated about the risk of a major 
accident or the overall performance of its process safety management 
systems. As a result, BP's corporate safety management system for its 
U.S. refineries did not effectively measure and monitor process safety 
performance.
    The Panel observed that the process safety performance metrics that 
BP was using were evolving. BP was monitoring at the corporate level 
several leading and lagging process safety metrics. BP also was working 
with external experts to review process safety performance indicators 
across the company and the industry.
    Incident and near miss investigations. BP acknowledged the 
importance of incident and near miss investigations, and it employed 
multiple methods at different levels of the organization to distribute 
information regarding incidents and lessons learned. Although BP was 
improving aspects of its incident and near miss investigation process, 
BP had not instituted effective root cause analysis procedures to 
identify systemic causal factors that may contribute to future 
accidents. When true root or system causes are not identified, 
corrective actions may address immediate or superficial causes, but not 
likely the true root causes. The Panel also believed that BP had an 
incomplete picture of process safety performance at its U.S. refineries 
because BP's process safety management system likely resulted in 
underreporting of incidents and near misses.
    Process safety audits. The Panel found that BP has not implemented 
an effective process safety audit system for its U.S. refineries based 
on the Panel's concerns about auditor qualifications, audit scope, 
reliance on internal auditors, and the limited review of audit 
findings.
    The Panel also was concerned that the principal focus of the audits 
was on compliance and verifying that required management systems were 
in place to satisfy legal requirements. It did not appear, however, 
that BP used the audits to ensure that the management systems were 
delivering the desired safety performance or to assess a site's 
performance against industry best practices. BP is in the process of 
changing how it conducts audits of safety and operations management 
systems, including process safety audits.
    Timely correction of identified process safety deficiencies. The 
Panel observed that BP expends significant efforts to identify 
deficiencies and to correct many identified deficiencies, which BP 
often does promptly. The Panel also found, however, that BP had 
sometimes failed to address promptly and track to completion process 
safety deficiencies identified during hazard assessments, audits, 
inspections, and incident investigations. The Panel's review, for 
example, found repeat audit findings at BP's U.S. refineries, 
suggesting that true root causes were not being identified and 
corrected. This problem was especially apparent with overdue mechanical 
integrity inspection and testing. Although BP regularly conducted 
various assessments, reviews, and audits within the company, the follow 
through after these reviews had fallen short repeatedly. This failure 
to follow through compromises the effectiveness of even the best audit 
program or incident investigation.
    In addition, BP did not take full advantage of opportunities to 
improve process operations at its U.S. refineries and its process 
safety management systems. BP did not effectively use the results of 
its operating experiences, process hazard analyses, audits, near 
misses, or accident investigations to improve process operations and 
process safety management systems.
    Corporate oversight. BP acknowledged the importance of ensuring 
that the company-wide safety management system functions as intended. 
The company's system for assuring process safety performance used a 
bottom-up reporting system that originates with each business unit, 
such as a refinery. As information was reported up, however, data was 
aggregated. By the time information was formally reported at higher 
levels of the organization, refinery-specific performance data was no 
longer presented separately.
    The Panel's examination indicated that BP's executive management 
either did not receive refinery-specific information that suggested 
process safety deficiencies at some of the U.S. refineries or did not 
effectively respond to the information that it did receive. According 
to annual reports on health, safety, security, and environmental 
assurance that BP management provided to the Environment and Ethics 
Assurance Committee of BP's Board of Directors for 1999 through 2005, 
management was monitoring process safety matters, including plant and 
operational integrity issues. The reports identify safety and integrity 
management risks that various levels of the organization confronted and 
describe management actions proposed to address and mitigate those 
risks. From 2001 to 2003, for example, BP developed and implemented 
standards for process safety and major accident risk assessments and 
increased monitoring and reporting of action item closure, sharing of 
lessons learned, overdue planned inspections, and losses of 
containment. The reports and other documents that the Panel examined 
indicated, however, that issues persisted relating to assurance of 
effective implementation of BP's policies and expectations relating to 
safety and integrity management.
    For these reasons, the Panel believed that BP's process safety 
management system was not effective in evaluating whether the steps 
that BP took were actually improving the company's process safety 
performance. The Panel found that neither BP's executive management nor 
its refining line management had ensured the implementation of an 
integrated, comprehensive, and effective process safety management 
system.
    BP's Board of Directors had been monitoring process safety 
performance of BP's operations based on information that BP's corporate 
management presented to it. A substantial gulf appears to have existed, 
however, between the actual performance of BP's process safety 
management systems and the company's perception of that performance. 
Although BP's executive and refining line management was responsible 
for ensuring the implementation of an integrated, comprehensive, and 
effective process safety management system, BP's Board had not ensured, 
as a best practice, that management did so. In reviewing the conduct of 
the Board, the Panel was guided by its chartered purpose to examine and 
recommend any needed improvements. In the Panel's judgment, this 
purpose did not call for an examination of legal compliance, but called 
for excellence. It was in this context and in the context of best 
practices that the Panel believed that BP's Board can and should do 
more to improve its oversight of process safety at BP's five U.S. 
refineries.
The Panel's Recommendations
    The Panel was charged with making recommendations to improve BP's 
corporate safety culture; process safety management systems; and 
corporate oversight of process safety. For each recommendation below, 
the Panel developed commentary that is an integral part of the 
recommendation and that provides more specific guidance relating to 
implementation of the recommendation. Reference should be made to 
Section VII of the Panel's report for a discussion of the 
recommendations and the related commentary. Each recommendation below 
should be read in conjunction with the related commentary.
             recommendation # 1--process safety leadership
    The Board of Directors of BP p.l.c, BP's executive management 
(including its Group Chief Executive), and other members of BP's 
corporate management must provide effective leadership on and establish 
appropriate goals for process safety. Those individuals must 
demonstrate their commitment to process safety by articulating a clear 
message on the importance of process safety and matching that message 
both with the policies they adopt and the actions they take.
    recommendation #2--integrated and comprehensive process safety 
                           management system
    BP should establish and implement an integrated and comprehensive 
process safety management system that systematically and continuously 
identifies, reduces, and manages process safety risks at its U.S. 
refineries.
       recommendation #3--process safety knowledge and expertise
    BP should develop and implement a system to ensure that its 
executive management, its refining line management above the refinery 
level, and all U.S. refining personnel, including managers, 
supervisors, workers, and contractors, possess an appropriate level of 
process safety knowledge and expertise.
               recommendation #4--process safety culture
    BP should involve the relevant stakeholders to develop a positive, 
trusting, and open process safety culture within each U.S. refinery.
recommendation #5--clearly defined expectations and accountability for 
                             process safety
    BP should clearly define expectations and strengthen accountability 
for process safety performance at all levels in executive management 
and in the refining managerial and supervisory reporting line.
             recommendation #6--support for line management
    BP should provide more effective and better coordinated process 
safety support for the U.S. refining line organization.
   recommendation #7--leading and lagging performance indicators for 
                             process safety
    BP should develop, implement, maintain, and periodically update an 
integrated set of leading and lagging performance indicators for more 
effectively monitoring the process safety performance of the U.S. 
refineries by BP's refining line management, executive management 
(including the Group Chief Executive), and Board of Directors. In 
addition, BP should work with the U.S. Chemical Safety and Hazard 
Investigation Board and with industry, labor organizations, other 
governmental agencies, and other organizations to develop a consensus 
set of leading and lagging indicators for process safety performance 
for use in the refining and chemical processing industries.
               recommendation #8--process safety auditing
    BP should establish and implement an effective system to audit 
process safety performance at its U.S. refineries.
                  recommendation #9--board monitoring
    BP's Board should monitor the implementation of the recommendations 
of the Panel (including the related commentary) and the ongoing process 
safety performance of BP's U.S. refineries. The Board should, for a 
period of at least five calendar years, engage an independent monitor 
to report annually to the Board on BP's progress in implementing the 
Panel's recommendations (including the related commentary). The Board 
should also report publicly on the progress of such implementation and 
on BP's ongoing process safety performance.
                  recommendation #10--industry leader
    BP should use the lessons learned from the Texas City tragedy and 
from the Panel's report to transform the company into a recognized 
industry leader in process safety management.
    The Panel believes that these recommendations, together with the 
related commentary, can help bring about sustainable improvements in 
process safety performance at all BP U.S. refineries.
    The Panel's recommendations were based on findings developed during 
2006. Since March 2005, BP has expressed a major commitment to a far 
better process safety regime, has committed significant resources and 
personnel to that end, and has undertaken or announced many measures 
that could impact process safety performance at BP's five U.S. 
refineries. In making its findings and recommendations, the Panel was 
not attempting to deny the beneficial effect on process safety that 
these measures may have. BP is a large corporation, and the Panel 
recognized that it is especially challenging to make dramatic and 
systemic changes in short time frames. However, whether measures 
already undertaken or announced will be effective remains to be seen. 
The ultimate effectiveness and sustainability of BP's intended 
improvements to its process safety performance can be determined only 
over time. The Panel believed that BP has much work remaining to 
improve the process safety performance at its U.S. refineries. The 
Panel's report also stated that BP should assess its future steps, 
including actions already planned as of the date of the Panel's report, 
against the Panel's findings and recommendations (and related 
commentary).
    The Panel's recommendations and related commentary contain elements 
designed to ensure that measures taken will sustain improvement in 
process safety performance. The Panel believed this emphasis on 
sustainability was particularly important given BP's failure to fully 
and comprehensively implement across BP's U.S. refineries the lessons 
from previous serious accidents, including the process incidents that 
occurred at BP's facility in Grangemouth, Scotland in 2000. The Panel's 
recommendations, and the process safety excellence that those 
recommendations contemplate, should not be abandoned or neglected. They 
should not become lesser priorities as changes occur in the economic, 
business, or regulatory climate for the U.S. refining industry; as 
refinery margins decline from their current high levels; as changes 
occur at BP, including changes in management; or as mergers and 
acquisitions take place.
    The Panel believed that the investments in BP's refining business 
and its refining workforce that its report suggested can benefit the 
company in many ways over time. Such investments should help reduce the 
economic or opportunity costs associated with a refinery operating at 
less than full capacity or not operating at all. Other potential 
benefits of investments in operations and process safety, such as 
improved workforce morale and increased productivity, may be difficult 
to measure but are no less important. The Panel believed that as 
process safety is embedded in all aspects of corporate culture, 
management systems, and operations relating to BP's U.S. refineries, 
BP's U.S. refining business will benefit.
    The Panel recognized that the task ahead of BP is significant and 
will take a concerted and lasting effort. It will not be easy, 
especially as time passes and the collective recognition of the 
importance of the task begins to fade. The Panel believed, however, 
that the BP refining workforce was ready, willing, and able to 
participate in a sustained, corporate-wide effort to move BP towards 
excellence in process safety performance as called for in the Panel's 
report. During its review, the Panel interacted with a large number of 
BP employees, contractors, managers, and executives. The Panel 
generally came away with favorable impressions of these people. As a 
group, they appeared hardworking and conscientious. Most importantly, 
they appeared sincerely interested in improving BP's management of 
process safety to prevent future incidents like the Texas City tragedy. 
This was the case at the Carson, Cherry Point, Texas City, Toledo, and 
Whiting refineries and in BP's corporate offices in Chicago and London.
    I note that on January 16, 2007, the same day that the Panel 
announced its report, BP stated that it would implement the Panel's 
recommendations.
    Finally, the Panel believed that all companies in the refining, 
chemical, and other process industries should give serious 
consideration to its recommendations and related commentary. While the 
Panel made no findings about companies other than BP, the Panel was 
under no illusion that the deficiencies in process safety culture, 
management, or corporate oversight identified in the Panel's report 
were limited to BP. If other refining and chemical companies understand 
the Panel's recommendations and related commentary and apply them to 
their own safety cultures, process safety management systems, and 
corporate oversight mechanisms, the Panel sincerely believed that the 
safety of the world's refineries, chemical plants, and other process 
facilities will be improved and lives will be saved.
    Thank you for allowing me to testify before you today.
                                 ______
                                 
    Admiral Bowman. It is significant to note that the panel 
was not charged with conducting an investigation into the 
causes of this tragic accident at Texas City. We did not seek 
to affix blame or apportion responsibility for that accident. 
Instead, the panel sought to understand if deficiencies in 
process safety performance existed at BP's U.S. refineries so 
that we could make recommendations that would enable the 
company to improve.
    The panel did not develop sufficient information to 
conclude that BP intentionally withheld resources on any 
safety-related projects for any budgetary reasons. However, the 
panel did believe that BP did not always ensure that adequate 
resources were effectively allocated to sustain a high level of 
process safety performance. The panel found that BP did not 
implement an integrated, comprehensive and effective process 
safety management system. The panel found that neither BP's 
executive management nor its refining line management had 
ensured the implementation of such a management system, and the 
panel found that BP's board in the U.K. had not ensured as a 
best practice that management implement such a system. These 
findings relating to BP's board were based on U.K.'s guidance 
on the role of the board as to health and safety practices and 
not on the failure to comply with any legal duties.
    Among other findings, the panel found material deficiencies 
in process safety performance at each of BP's five U.S. 
refineries and that BP had not instilled a common process 
safety culture among those refineries.
    Prior to the Texas City accident, BP had emphasized 
personal safety in recent years and had achieved significant 
improvement in personal safety performance, but the company had 
not emphasized process safety. BP mistakenly interpreted 
improving personal injury rates as an indication of acceptable 
performance and process safety at its U.S. refineries. BP's 
reliance on this data combined with an inadequate process 
safety understanding created a false sense of confidence that 
it was properly addressing process safety risk. BP had not 
adequately established process safety as a core value across 
its five U.S. refineries. BP had not made certain that its line 
management and its U.S. refining workforce even understood what 
was expected of them in terms of process safety. The panel made 
specific and extensive recommendations organized under 10 
topics, which I would refer to the committee in the full 
report.
    One recommendation calls for BP to engage an independent 
monitor to observe the implementation of the panel's 
recommendations for the next 5 years.
    I would note that, on the same day that we issued our 
report, BP stated that it would implement the panel's 
recommendations. Our report notes that, since the Texas City 
refinery explosion, BP's executive management has expressed a 
major commitment to a far better process safety regime, has 
committed significant resources and personnel to that end and 
has undertaken or announced many measures that would 
beneficially impact process safety. However, the ultimate 
effectiveness and sustainability of the company's intended 
improvements can be determined only over time.
    Let me finish with a very short paragraph that precedes our 
report, the main report.
    ``Preventing process safety accidents requires vigilance. 
The passing of time without a process accident is not 
necessarily an indication that all is well and may well, in 
fact, contribute to a dangerous and growing sense of 
complacency. When people lose an appreciation of how their 
safety systems were intended to work, safety systems and 
controls can deteriorate. Lessons can be forgotten, and hazards 
and deviations from safe operating procedures can be accepted. 
Workers and supervisors can increasingly rely on how things 
were done before rather than rely on sound engineering 
principles and other controls. People can forget to be 
afraid.''
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Ms. Rowe.

   STATEMENT OF EVA ROWE, RELATIVE OF BP TEXAS CITY DISASTER 
                            VICTIMS

    Ms. Rowe. Good morning. First, I would like to thank 
Chairman Miller and the entire committee for inviting me to 
speak today on the tragedy at the BP Texas City Oil refinery. 
For me and many others, tomorrow will be a solemn day in Texas 
City, Texas as it marks the second anniversary of the horrible 
blast that ripped apart my life and the lives of so many 
others. The explosion at BP's Oil refinery murdered 15 people, 
including my parents, James and Linda Rowe, and injured 
hundreds more. The true tragedy is that it was needless and 
completely avoidable.
    At approximately 1:20 p.m. that day, BP initiated a 
dangerous procedure at the refinery, using outdated and faulty 
equipment that sent 7,600 gallons of highly flammable liquid 
hydrocarbons, the equivalent of a tanker truck full of 
gasoline, into the air. Dozens of workers were in trailers as 
close as 100 feet away. They were not warned of the imminent 
danger when an idling truck ignited the devastating chain-
reaction explosion.
    I, personally, believe that BP, with its corporate culture 
of greed over profits, murdered my parents, denying my brother 
Jeremy and me, along with the families of 13 others, the joy of 
the love of our fathers, mothers, brothers, and sisters and the 
warmth of their smiles and embraces forever. It is of little 
comfort to us, but we hope through this legislation to ensure 
more stringent worker health and safety standards that their 
deaths will not be in vain.
    Today, I ask Congress to carefully review the report issued 
this week by the U.S. Chemical Safety Board and act with great 
speed on its recommendations. I ask that you create an 
environment of safety for all workers who risk their lives each 
day in already dangerous jobs that contribute so much to our 
great country and its economy.
    Today, I come to Congress, asking that you mandate by law a 
change in corporate culture by requiring that all corporations 
place workers' safety before profits.
    Today, I come to Congress and ask that you require OSHA, 
the Occupational Safety and Health Administration, to increase 
safety and inspections of all oil refineries as the Chemical 
Safety Board has recommended.
    In Austin tomorrow, we will gather on the steps of the 
state capital to announce the ``Remember the 15'' bill in the 
Texas State legislature. It is the first step in seeking to 
mandate that those running the petrochemical industry create a 
safe working environment for its workers.
    Today, I come to Congress asking that you join with the 
great State of Texas and change the laws of our land so that no 
other family will have to feel the pain and sadness I have felt 
hearing of my parents' deaths.
    Thank you all so very much for your time and for this 
opportunity.
    [The statement of Ms. Rowe follows:]

  Prepared Statement of Eva Rowe, Relative of BP Texas City Disaster 
                                Victims

    Good morning.
    First I want to thank Representative Miller and the entire 
Committee for inviting me to speak today on the tragedy at the BP Texas 
City oil refinery.
    For me and many others, tomorrow will be a solemn day in Texas 
City, Texas, as it marks the second anniversary of that horrible blast 
that ripped apart my life and the lives of so many others. The 
explosion at BP's oil refinery killed 15 people--including my parents, 
James and Linda Rowe--and injured hundreds more. The true tragedy is 
that it was a needless and completely avoidable explosion.
    At approximately 1:20 p.m. that day, BP initiated a dangerous 
procedure at the refinery, using outdated and faulty equipment that 
sent 7,600 gallons of highly flammable liquid hydrocarbons--the 
equivalent of a tanker truck full of gasoline--into the air. Dozens of 
workers were in trailers as close as 100 feet away and were not warned 
of the imminent danger, when an idling truck ignited the devastating 
chain-reaction explosion.
    I personally believe that BP, with its corporate culture of greed 
over profits, murdered my parents, denying my brother Jeremy and me, 
along with the families of the 13 others, the joy of the love of our 
fathers, mothers, brothers and sisters, and the warmth of their smiles 
and embraces forever. It is of little comfort to us, but we hope that, 
through legislation to ensure more stringent worker health and safety 
standards, that their deaths won't be in vain.
    Today, I ask Congress to carefully review the report issued this 
week by the U.S. Chemical Safety Board and act with great speed on its 
recommendations. I ask that you create an environment of safety for all 
workers who risk their lives each day, in already dangerous jobs that 
contribute so much to our great country and its economy.
    Today I come to Congress asking that you mandate by law a change in 
corporate culture, by requiring that all corporations place worker 
safety before profits.
    Today, I come to Congress to ask that you require OSHA, the 
Occupational Safety and Health Administration, to increase safety and 
inspections of all U.S. oil refineries, as the Chemical Safety Board 
has recommended.
    In Austin tomorrow, we will gather on the steps of the state 
capital to announce the ``Remember the 15'' bill in the Texas State 
Legislature. It is a first step in seeking to mandate that those 
running the petrochemical industry create a safe working environment 
for its workers.
    Today I come to Congress asking that you join with the great state 
of Texas and change the laws of our land so that no other family will 
have to feel the pain and sadness I felt hearing of my parents death.
    Thank you all so very much for your time and for this opportunity.
                                 ______
                                 
    Chairman Miller. Thank you. Thank you very much, Ms. Rowe.
    Mr. Cavaney.

    STATEMENT OF RED CAVANEY, PRESIDENT AND CHIEF EXECUTIVE 
             OFFICER, AMERICAN PETROLEUM INSTITUTE

    Mr. Cavaney. I thank you, Mr. Chairman, Ranking Member 
McKeon and members of the committee.
    I also want to express my personal sympathies toward Ms. 
Rowe and all of the other people who have suffered as a result 
of this accident. I am Red Cavaney, President and CEO of the 
American Petroleum Institute. API's 400 member companies 
represent all sectors of America's oil and natural gas 
industry. I am testifying today on behalf of API and the 
National Petrochemical and Refiners Association. NPRA has 450 
members, including virtually all U.S. refineries and 
petrochemical manufacturers.
    Texas City has been a devastating tragedy to the facility's 
workers, their families, the community, and the company 
involved. It has also had a profound impact on the refining and 
petrochemical industry. Words are incapable of fully describing 
the deep sadness and sympathy that we have for all of those who 
have borne such a heavy burden.
    Safety in the industry is a moral imperative with a top 
priority. Keeping employees, contractors and neighbors safe is 
and has been a goal we continually strive to achieve. It is the 
right thing to do, but it also happens to make good business 
sense. No accident is acceptable, and preventing the 
possibility of a fatal accident like what happened at Texas 
City is a goal toward which we all work day in and day out.
    In light of the tragic accident and concerns raised by the 
Baker report, individual companies have been examining their 
safety procedures in search for improvements. In fact, a number 
of companies are using the Baker report in an audit in going 
through all of their refineries. Collectively, the industry is 
also taking action. At API, we are reviewing our standards on 
process equipment and operational safety. We are developing a 
new recommended practice on the siting of temporary structures 
that will become final later this spring. We will also be 
reviewing the Chemical Safety Board's more recent 
recommendation on safety standards in considering possible new 
guidance.
    API is the industry standard-setting leader and an ANSI-
accredited standards development organization. API standards 
reflect broad input from experts in and outside the industry 
and are regularly reviewed and revised. Among the 500 
standards, we now maintain some 110 process safety-related. In 
reinforcing OSHA process safety management rules, these 
standards cover worker and contractor safety, mechanical 
integrity of pressure vessels and tanks, fire prevention, 
protection, and suppression and the certification of refinery 
equipment safety inspectors. There are thousands of API-
certified inspectors examining pressure vessels and other 
process equipment throughout the world.
    In addition to the response from our standards program, API 
and NPRA members share best practices and evaluate what can be 
learned from incidents and potential incidents. We are working 
with OSHA and other groups on these issues. We are also 
encouraging higher levels of performance through process safety 
training and industry awards to encourage best in practice 
behavior, and we have formed a broad coalition of organizations 
and industry experts to evaluate ways that we can improve 
process safety. The Center for Chemical Process Safety, an 
organization supported by API and NPRA members, expects to 
publish a study this year, setting forth the lessons learned 
through process unit accidents, including the Texas City 
accident. We will closely review that information, seeking 
additional input into our standards process.
    The devastation caused by the Texas City accident demands 
of us as an industry that we look anew at what we are doing and 
strive even further towards additional improvements. That is 
happening, and it will continue to happen. Texas City and its 
loss of colleagues and the pain and grief suffered by loved 
ones will not be forgotten. The lessons will remain with us for 
many, many years.
    This concludes my statement, Mr. Chairman. I welcome the 
opportunity to answer questions that the committee may have. 
Thank you.
    [The statement of Mr. Cavaney follows:]

         Prepared Statement of Red Cavaney, President and CEO,
                      American Petroleum Institute

    Good morning Chairman Miller, Ranking Member McKeon, and members of 
the committee.
    I am Red Cavaney, President and CEO of the American Petroleum 
Institute (API). API's 400 member companies represent all sectors of 
America's oil and natural gas industry. I am testifying today on behalf 
of API and the National Petrochemical and Refiners Association (NPRA). 
NPRA has 450 members, including virtually all U.S. refiners and 
petrochemical manufacturers.
    Texas City has been a devastating tragedy to the facility's 
workers, their families, the community, and the company involved. It 
has also had a profound impact on the refining and petrochemical 
industry. No words can fully describe the deep sadness and sympathy we 
all feel.
    Safety in the industry is a moral imperative and a top priority. 
Keeping employees, contractors and neighbors safe is, and was, and is a 
goal we continually strive to achieve. It's the right thing to do. It 
also happens to be good business practice. No accident is acceptable. 
And, preventing the possibility of a fatal accident like what happened 
at Texas City is a goal we work towards day in and day out.
Industry action: standards
    Within API, we have a formal, comprehensive and rigorous approach 
to the development of industry standards and recommended practices, 
which we routinely update as new information and data become available. 
Following the Texas City incident, we did just that, and, as is our 
practice, we will continue to do so.
    We have reviewed the Chemical Safety Board (CSB) recommendation on 
temporary facility siting and published a draft recommended practice in 
2006. API expects to publish a final version of this recommended 
practice later this spring. We are also working to identify areas where 
new guidance related to process safety is needed and will certainly 
consider developing additional standards as appropriate. We are 
reviewing all of CSB's recently issued recommendations on additional 
safety standards.
    API is the industry standards setting leader and, as an American 
National Standards Institute (ANSI) accredited standards development 
organization, operates with approved standards development procedures 
and undergoes regular audits of its processes. API standards affect 
both industry equipment and operations. Standards serve both safety and 
business objectives. In developing our industry standards, API is in 
conformance with ANSI guidelines and employs a consensus process that 
often includes regulators and experts who are not API members.
    Among the 500 standards we now maintain and regularly review and 
revise, many are focused on process safety and are consistent with OSHA 
process safety management rules. In fact, API Recommended Practice 750, 
Management of Process Hazards, was one of the primary resources used by 
OSHA in its development of process safety management regulations.
    API's approximately 110 process safety-related standards cover 
worker and contractor safety; mechanical integrity of pressure vessels 
and tanks; fire prevention, protection and suppression; and 
certification of refinery equipment safety inspectors. These standards 
are consistent with and reinforce OSHA's process safety management 
rule. An addendum with specifics is attached.
    As a specific example of the interrelationship between the API 
Standards and Certification Programs and the OSHA Process Safety 
Management Regulations, one only need refer to Section J of the 
regulations on Mechanical Integrity. This section applies to a broad 
range of process equipment including pressure vessels and storage 
tanks, controls, piping, valves, pumps and other key equipment used in 
refineries and chemical processing facilities. Each piece of equipment 
specified in Section J is also subject of an API standard or 
recommended practice. Further, the equipment inspection requirements of 
Section J are also backed by a series of API standards for inspection, 
which are also the basis of the API Individual Certification Program 
(ICP).
    The ICP programs are designed to promote safety and health, 
improved inspection capabilities, and improved management control and 
environmental performance. Certified inspectors are recognized as 
working professionals who are fully knowledgeable on industry 
inspection codes, and who are performing their jobs in accordance with 
those requirements. ICP provides an essential springboard for 
inspectors to make even more valuable contributions to the safety and 
quality of industry operations. API's certification programs also 
reflect API's Environmental, Health and Safety Mission and Guiding 
Principles, which are part of API's bylaws.
    API's inspector certifications are based on industry-developed 
standards that are recognized and used with confidence worldwide. These 
standards have also provided a uniform platform that serves as a model 
for many state and government regulations. These API programs emphasize 
professional credibility and process integrity. Certified inspectors 
are required to complete an eight-hour comprehensive, proctored exam 
and are recertified every three years.
Industry action: sharing lessons learned and best practices
    In addition to the comprehensive industry standards program, our 
industry has developed mechanisms to share valuable lessons-learned 
from incidents, potential incidents and best practices to improve 
safety at processing facilities. API holds an annual process safety 
management best practices workshop. NPRA holds an annual safety 
conference. API is working with OSHA, the National Fire Protection 
Association (NFPA), and the Steel Tank Institute (STI) to improve tank 
safety. There are also industry safety awards to heighten awareness and 
competition for best-in-class practices; process safety training; and 
industry conferences on incident root causes, learnings and mitigation 
measures. The Baker panel report and the CSB report provide additional 
opportunities to improve process safety.
    Refiners and chemical plant operators have also formed a broad 
coalition of organizations and industry experts as part of our 
continuous improvement program, which includes all aspects of industry 
safety, including process safety. This coalition is evaluating ways to 
continue to improve process safety and to leverage the lessons learned 
among the coalition member organizations.
    Also, the Center for Chemical Process Safety, an organization 
supported by API and NPRA members, expects to publish a study this year 
setting forth the lessons learned from process unit accidents, 
including the Texas City accident.
    In addition, API has an educational program, API University, which 
includes more than 35 classroom and e-Learning courses and workshops on 
safety and safety-related issues. Through this collection of courses, 
API brings together and trains hundreds and hundreds of people annually 
in diverse safety subject matters. Examples of API University courses 
include Process Safety Management (PSM) for Refineries and Exploration 
and Production Operations, Performing Facility Siting Studies, and 
Improving Process Safety Management and Effectiveness. In the Process 
Management for Refineries and Exploration and Production Operations 
course, trainees study specific guidelines for developing written 
programs to meet PSM regulations, integrating PSM element requirements 
into other corporate programs, and evaluating program compliance 
throughout the implementation phase. Trainees in this course also get 
insight into the latest regulatory developments and receive summary 
documentation of key clarifications by OSHA and EPA.
Conclusion
    The devastation caused by the Texas City accident demands of us in 
industry to look anew at what we are doing and to strive toward 
continual improvement. That is happening, and it will continue. Texas 
City and its loss of colleagues, as well as the pain and grief suffered 
by loved ones, will not be forgotten. These lessons will remain with us 
for many years.
    This concludes my statement, Mr. Chairman. I welcome the 
opportunity to answer any questions the committee might pose.

     OSHA Process Safety Management of Highly Hazardous Chemicals, 
              29CFR1910.119 and the API Standards Program

    The purpose of the OSHA process safety management (PSM) regulations 
is as follows:
    This section contains requirements for preventing or minimizing the 
consequences of catastrophic releases of toxic, reactive, flammable, or 
explosive chemicals. These releases may result in toxic, fire or 
explosion hazards.
    The PSM Standard is also the required prevention program for the 
Environmental Protection Agency's ``Risk Management Program Rule'' for 
Program 2 (modified) or Program 3 processes.
Overview
    The PSM regulations are organized by the following subsections and 
lay out a prescribed set of rules for compliance. These rules require 
significant documentation to ensure safe work practices for employees 
and contractors, operational safety, equipment integrity, management of 
change and incident investigation. The regulatory language is simple 
and brief, but requires detailed documentation, and a thorough working 
knowledge of each of the subsections' applications.
    (a) Application
    (b) Blank
    (c) Employee Participation
    (d) Process Safety Information
    (e) Process Hazard Analysis
    (f) Operating Procedures
    (g) Training
    (h) Contractors
    (i) Pre-Startup Safety Review
    (j) Mechanical Integrity
    (k) Hot-Work Permit
    (l) Management of Change
    (m) Incident Investigation
    (n) Emergency Planning and Response
    (o) Compliance Audits
    (p) Trade Secrets
    The purpose of this summary is to link the subsection areas with 
the API specifications, standards, recommended practices and codes 
(``standards'') that are relevant and applicable in documenting PSM 
compliance.
Role of National Consensus Standards in PSM Compliance
    In an interpretation provided to ISA in 2000, (http://www.osha-
slc.gov/pls/oshaweb/owadisp.show--document?p--table=INTERPRETATIONS&p--
id=23722) OSHA stated, in response to a query regarding the 
applicability of ANSI/ISA S84.01, that as a national consensus 
document, OSHA considers it to be a recognized and generally accepted 
good engineering practice. Further it states, ``Based on input from 
stakeholders, OSHA stated in the PSM final rule (see F.R., Volume 57, 
No. 36, pg 6390) that it did not intend to incorporate by reference 
into PSM all the codes and standards published by consensus groups.''
    Further, in Appendix C to 1910.119, with regard to process safety 
information, OSHA states:
    The information pertaining to process equipment design must be 
documented. In other words, what were the codes and standards relied on 
to establish good engineering practice. These codes and standards are 
published by such organizations as the * * * American Petroleum 
Institute. * * *
    In the context of mechanical integrity and inspection, OSHA notes:
    Meantime to failure of various instrumentation and equipment parts 
would be known from the manufacturers data or the employer's experience 
with the parts, which would then influence the inspection and testing 
frequency and associated procedures. Also, applicable codes and 
standards such as * * * those from the American Petroleum Institute * * 
* and other groups, provide information to help establish an effective 
testing and inspection frequency, as well as appropriate methodologies.
    In these two citations, OSHA has asserted that compliance with OSHA 
PSM requirements, therefore, may be demonstrated and supported through 
the reliance on these national consensus documents developed under ANSI 
accredited procedures including numerous standards produced by API.
Relationship Between API Standards and Certification Programs to OSHA 
        PSM Requirements
    The relevant API standards and programs can be generally grouped 
into five categories:
    a) Personnel and Contractor Safety
    b) Fire Prevention, Protection and Suppression
    c) Inspection of Equipment and Methodologies for In-Service 
Assessment
    d) Equipment Design and Reliability
    e) Technical Data on Petroleum Product Properties
    f) Certification for Training Providers and Individuals
    The following list by PSM Subsection shows the relevant API 
standards and programs that related to each section's subject area.
    a) Application
    b) Blank
    c) Employee Participation----
    2220, Improving Owner and Contractor Safety Performance
    2221, Contractor and Owner Safety Program mplementation
    d) Process Safety Information
    <bullet> Safe Limits/Process Chemistry
    Technical Data Book--Petroleum Refining
    <bullet> Materials of Construction----
    600, Bolted Bonnet Steel Gate Valves for Petroleum and Natural Gas
    Industries
    602, Steel Gate, Globe and Check Valves for Sizes DN 100 and 
Smaller for the Petroleum and Natural Gas Industries
    603, Corrosion-Resistant, Bolted Bonnet Gate Valves--Flanged and 
Butt-Welding Ends
    608, Metal Ball Valves--Flanged, Threaded and Butt-Welding Ends
    609, Butterfly Valves: Double Flanged, Lug- and Water-Type
    620, Design and Construction of Large, Welded, Low-pressure Storage 
Tanks
    650, Welded Steel Tanks for Oil Storage
    520, Sizing, Selection, and Installation of Pressure-relieving 
Devices in Refineries, Part I--Sizing and Selection
    6D, Specification for Pipeline Valves
    <bullet> Electrical Classification----
    500, Recommended Practice for Classification of Locations for 
Electrical Installations at Petroleum Facilities Classified as Class I, 
Division 1 and Division 2
    505, Recommended Practice for Classification of Locations for 
Electrical Installations at Petroleum Facilities Classified as Class l, 
Zone 0, Zone 1 and Zone 2
    <bullet> Relief System Design----
    520 Pt.1, Sizing, Selection, and Installation of Pressure-relieving 
Devices in Refineries, Part I--Sizing and Selection 521, Guide for 
Pressure-relieving and Depressuring Systems
    <bullet> Ventilation System Design----
    2015, Requirements for Safe Entry and Cleaning of Petroleum Storage 
Tanks
    2016, Guidelines and Procedures for Entering and Cleaning Petroleum 
Storage Tanks
    2217A, Guidelines for Work in Inert Confined Spaces in the 
Petroleum Industry
    <bullet> Safety Systems----
    2001, Fire Protection in Refineries
    2003, Protection Against Ignitions Arising Out of Static, 
Lightning, and Stray Currents
    2009, Safe Welding, Cutting and Hot Work Practices in the Petroleum 
and Petrochemical Industries
    2027, Ignition Hazards Involved in Abrasive Blasting of Atmospheric 
Storage Tanks in Hydrocarbon Service
    2028, Flame Arresters in Piping Systems
    2030, Application of Fixed Water Spray Systems for Fire
    Protection in the Petroleum and Petrochemical Industries
    2201, Safe Hot Tapping Practices in the Petroleum &
    Petrochemical Industries
    2210, Flame Arresters for Vents of Tanks Storing Petroleum
    Products
    2214, Spark Ignition Properties of Hand Tools
    2216, Ignition Risk of Hydrocarbon Vapors by Hot Surfaces
    in the Open Air
    2217A, Guidelines for Work in Inert Confined Spaces in the
    Petroleum Industry
    2218, Fireproofing Practices in Petroleum and Petrochemical
    Processing Plants
    2220, Improving Owner and Contractor Safety Performance
    2221, Contractor and Owner Safety Program Implementation
    2015, Requirements for Safe Entry and Cleaning of Petroleum Storage 
Tanks
    2016, Guidelines and Procedures for Entering and Cleaning Petroleum 
Storage Tanks
    2021, Management of Atmospheric Storage Tank Fires
    2026, Safe Access/Egress Involving Floating Roofs of Storage Tanks 
in Petroleum Service
    2350 Overfill Protection for Storage Tanks in Petroleum Facilities
    <bullet> Inspection----
    510, Pressure Vessel Inspection Code: In-Service Inspection, 
Rating, Repair, and Alteration
    570, Piping Inspection Code: Inspection, Repair, Alteration, and 
Rerating of In-service Piping Systems
    653, Tank Inspection, Repair, Alteration, and Reconstruction
    579, Fitness-For-Service
    572, Inspection of Pressure Vessels
    573, Inspection of Fired Boilers and Heaters
    574, Inspection Practices for Piping System Components
    575, Inspection of Atmospheric & Low Pressure Storage Tanks
    576, Inspection of Pressure Relieving Devices
    577, Welding Inspection and Metallurgy
    578, Material Verification Program for New and Existing Alloy 
Piping Systems
    e) Process Hazard Analysis
    <bullet> Incident Data----
    2384, 2005 Survey on Petroleum Industry Occupational Injuries, 
Illnesses, and Fatalities Summary Report: Aggregate Data Only
    2383, 2004 Survey on Petroleum Industry Occupational Injuries, 
Illnesses, and Fatalities Summary Report: Aggregate Data Only
    2382, 2003 Survey on Petroleum Industry Occupational Injuries, 
Illnesses, and Fatalities Summary Report: Aggregate Data Only
    2381, 2002 Survey on Petroleum Industry Occupational Injuries, 
Illnesses and Fatalities Summary Report: Aggregate Data Only
    <bullet> Controls for Process Monitoring and Instrumentation----
    551, Process Measurement Instrumentation
    552, Transmission Systems
    553, Refinery Control Valves
    554, Process Instrumentation and Control
    555, Process Analyzers
    556, Fired Heaters & Steam Generators
    557, Guide to Advanced Control Systems
    <bullet> Consequences of Failure----
    580, Risk-Based Inspection
    581, Base Resource Document--Risk Based Inspection
    f) Operating Procedures
    g) Training
    Initial and refresher training programs are supported by several 
API programs including the ``Training Provider Certification Program'' 
(TPCP) which accredits trainers, the ``Individual Certification 
Program'' (ICP) which accredits individuals who have demonstrated 
competency in various inspection subject areas, and ``API University'' 
which provides specific training on safety, maintenance, operations, 
and standards.
    h) Contractors
    2220, Improving Owner and Contractor Safety Performance
    2221, Contractor and Owner Safety Program Implementation
    i) Pre-Startup Safety Review
    j) Mechanical Integrity
    <bullet> Application----
    579, Fitness-For-Service
    <bullet> Pressure Vessels and Storage Tanks----
    510, Pressure Vessel Inspection Code: In-Service Inspection, 
Rating, Repair, and Alteration
    653, Tank Inspection, Repair, Alteration, and Reconstruction
    572, Inspection of Pressure Vessels
    575, Inspection of Atmospheric & Low Pressure Storage Tanks
    <bullet> Piping Systems and Valves----
    570, Piping Inspection Code: Inspection, Repair, Alteration, and 
Rerating of In-service Piping Systems
    574, Inspection Practices for Piping System Components
    578, Material Verification Program for New and Existing Alloy 
Piping Systems
    598, Valve Inspection and Testing
    607, Testing of Valves--Fire Type-testing Requirements
    622, Type Testing of Process Valve Packing for Fugitive Emissions
    <bullet> Relief and Vent Systems and Devices----
    576, Inspection of Pressure Relieving Devices
    510, Pressure Vessel Inspection Code: In-Service Inspection, 
Rating, Repair, and Alteration
    537, Flare Details for General Refinery and Petrochemical Service
    2000, Venting Atmospheric and Low-pressure Storage Tanks: 
Nonrefrigerated and Refrigerated
    <bullet> Emergency Shutdown Systems----
    2350, Overfill Protection for Storage Tanks in Petroleum Facilities
    <bullet> Controls----
    551, Process Measurement Instrumentation
    552, Transmission Systems
    553, Refinery Control Valves
    554, Process Instrumentation and Control
    555, Process Analyzers
    556, Fired Heaters & Steam Generators
    557, Guide to Advanced Control Systems
    <bullet> Pumps----
    610, Centrifugal Pumps for Petroleum, Petrochemical and Natural Gas 
Industries
    614, Lubrication, Shaft-sealing, and Control-oil Systems and 
Auxiliaries for Petroleum, Chemical and Gas Industry Services
    674, Positive Displacement Pumps--Reciprocating
    675, Positive Displacement Pumps--Controlled Volume
    676, Positive Displacement Pumps--Rotary
    681, Liquid Ring Vacuum Pumps and Compressors
    682, Pumps--Shaft Sealing Systems for Centrifugal and Rotary Pumps
    685, Sealless Centrifugal Pumps for Petroleum, Heavy Duty Chemical, 
and Gas Industry Services
    686, Machinery Installation and Installation Design
    687, Rotor Repair
    k) Hot-Work Permit----
    2201, Safe Hot Tapping Practices in the Petroleum & Petrochemical 
Industries
    l) Management of Change
    <bullet> Inspections and Tests----
    510, Pressure Vessel Inspection Code: In-Service Inspection, 
Rating, Repair, and Alteration
    570, Piping Inspection Code: Inspection, Repair, Alteration, and 
Rerating of In-service Piping Systems
    653, Tank Inspection, Repair, Alteration, and Reconstruction
    579, Fitness-For-Service
    572, Inspection of Pressure Vessels
    573, Inspection of Fired Boilers and Heaters
    574, Inspection Practices for Piping System Components
    575, Inspection of Atmospheric & Low Pressure Storage Tanks
    576, Inspection of Pressure Relieving Devices
    577, Welding Inspection and Metallurgy
    578, Material Verification Program for New and Existing Alloy 
Piping Systems
    581, Base Resource Document--Risk Based Inspection
    <bullet> Suitability for Service----
    (All Previously Standards Listed Above)
    m) Incident Investigation
    n) Emergency Planning and Response
    o) Compliance Audits
    p) Trade Secrets
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Nibarger.

STATEMENT OF KIM NIBARGER, HEALTH AND SAFETY SPECIALIST, UNITED 
STEELWORKERS INTERNATIONAL UNION, DEPARTMENT OF HEALTH, SAFETY 
                      AND THE ENVIRONMENT

    Mr. Nibarger. Mr. Chairman and members of the committee, 
thank you for the opportunity to appear before you this 
morning. My name is Kim Nibarger. I am a member of the United 
Steelworkers, and I am also a Health and Safety Specialist for 
the union's Health, Safety and Environment Department. The USW 
has approximately 850,000 members in the United States and 
Canada. Notwithstanding our name, we represent workers in 
virtually every segment of the workforce--steel, of course, but 
also paper, mining, aluminum, and other nonferrous metals, 
chemicals, plastics, tires and rubber, glass, health care, and 
petrochemicals, which is the subject of today's hearing.
    Our members work in very dangerous environments where 
worker safety is key. The Process Safety Management standard 
was developed to help ensure safe and helpful workplaces 
processing toxic, reactive, flammable gases and liquids or 
other highly hazardous chemicals. The implementation of PSM 
began in 1992, and all requirements of the program were to be 
in place by May 26, 1997.
    There were a number of devastating accidents in the 
petrochemical industry that precipitated this legislation. 
Unfortunately, these accidents continue to take place.
    The explosion at the BP facility in Texas City resulted in 
15 fatalities and in more than 170 injuries. This was but one 
of a handful of incidents that take the lives of workers in the 
petrochemical industry every month. The reason these go 
unnoticed is that they usually happen one or two fatalities at 
a time or the affected workers are contract employees who do 
not get connected with the proprietary employers. 
Unfortunately, it takes a major event like the one we saw in 
Texas City for these incidents to get any real notice. In fact, 
prior to the BP explosion, there was one worker fatality every 
16 months for 30 years at the Texas City facility.
    The number of releases of highly hazardous chemicals, in 
particular hydrocarbons, that do not find an ignition source is 
estimated to be 98 percent. Again, you do not hear about these 
releases unless there is an explosion or a fire associated with 
the release. Any number of these releases, had they found an 
ignition source, could have resulted in consequences as tragic 
as Texas City.
    The refinery that I worked for in Anacortes, Washington 
released approximately 27,000 pounds of propane and propylene 
as light hydrocarbons in April of 2006. They did not find an 
ignition source, and the release was contained. Had the ensuing 
vapor cloud ignited, the damage would have been extensive. The 
underlying cause was a pipe corrosion issue brought on by a 
seemingly small change in the process which was not considered 
significant enough to trigger a Management of Change review, or 
MOC.
    The day before Thanksgiving in 1998 at this same facility, 
we experienced a situation with slightly different 
circumstances. Again, a Management of Change was not performed, 
and a decision was made to handle this abnormal event using 
normal procedures. The result was six fatalities. I was one 
member of a team tasked with the retrieval of the bodies of my 
six coworkers.
    The fire at the Valero refinery in Sunray, Texas on 
February 16th of this year was also a release of light 
hydrocarbons, propane, but this release found an ignition 
source almost immediately that resulted in a serious fire but 
did minimal damage compared to the potential damage from a 
vapor cloud forming and then igniting. There could have easily 
been as many fatalities in any of these instances as there were 
in Texas City where the circumstances were slightly different.
    Since the beginning of 2007, Valero has had a total of 
eight incidents, ranging from loss of utilities that resulted 
in production cutbacks and flaring to four incidents that 
caused fires. This is a pattern repeated all too often. In the 
U.S. from January 1st through February 16th of this year, there 
have been 43 incidents of pipeline leaks, chemical releases, 
plant upsets, and fires. This list is not inclusive, but I seek 
to focus on refinery and chemical plants as well as 
distribution facilities. In some instances, facilities or 
neighborhoods were evacuated without incident. Sadly, in others 
there were lives lost.
    The United Steelworkers represents approximately half of 
the workers in the petrochemical industry in this country. We 
have an intimate concern with the well-being of the workers we 
represent as well as the industry.
    One of the union's major goals is to work with the 
petrochemical industry to make it safer for our members and for 
the communities in which these facilities exist. In the case of 
BP, we are currently in negotiations with the company to 
institute a 10-point program to address several items brought 
forward through the Baker panel report.
    Specifically, we are working to establish a pilot program 
in Texas City of the unions, a trial prevention program for a 
joint accident/near miss investigation. We are working on 
collectively developing safety and job training programs as 
well as procedure writing and a review process for all of BP's 
U.S. represented sites. The issue of adequate staffing and 
reasonable work hours is also being addressed.
    This is the first step in our union's goal of realizing 
this type of involvement at all of the facilities we represent. 
Who knows better about the day-to-day activities and the best 
way to deal with them than the workers who perform these jobs 
on a daily basis?
    For me, safety in the petrochemical industry is personal. 
My USW responsibilities involve me in the prevention and 
investigation of industrial fatalities on a daily basis. The 
focus of everything we do is to eliminate deaths in the 
workplace. When I no longer have to investigate workplace 
fatalities, I will be the happiest person alive.
    Thank you again for the opportunity to testify this 
morning.
    [The statement of Mr. Nibarger follows:]

   Prepared Statement of Kim Nibarger, Health and Safety Specialist, 
    Health, Safety and Environment Department, United Steelworkers 
                          International Union

    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you this morning. My name is Kim Nibarger. 
I am a member of the United Steelworkers (USW), and I am also a Health 
and Safety Specialist for our Union's Health, Safety and Environment 
Department. The USW has approximately 850,000 members in the United 
States and Canada. Notwithstanding our name, we represent workers in 
virtually every segment of the workforce--steel of course, but also, 
paper, mining, aluminum and other nonferrous metals, chemicals, 
plastics, tires and rubber, glass, health care, and petrochemicals, 
which is the subject of today's hearing.
    Our members work in very dangerous environments where worker safety 
is key. The Process Safety Management (PSM) standard was developed to 
help insure safe and healthful workplaces processing toxic, reactive, 
flammable gasses and liquids or other highly hazardous chemicals. 
Implementation of PSM began in 1992 and all requirements of the program 
were to be in place by May 26, 1997.
    There were a number of devastating accidents in the petrochemical 
industry that precipitated this legislation. Unfortunately, these 
accidents continue to take place.
    The explosion at the BP facility in Texas City resulted in 15 
fatalities and more than 170 injuries. This was but one of a handful of 
incidents that take the lives of workers in the petrochemical industry 
every month. The reason these go unnoticed is that they usually happen 
one or two fatalities at a time, or the affected workers are contract 
employees who do not get connected with the proprietary employers. 
Unfortunately it takes a major event like the one we saw in Texas City 
for these incidents to get any real notice. In fact, prior to the BP 
explosion, there was one worker fatality every 16 months for 30 years 
at the Texas City facility.
    The number of releases of highly hazardous chemicals, in particular 
hydrocarbons, that do not find an ignition source is estimated to be 
98%. Again, you do not hear about these releases unless there is an 
explosion or fire associated with the release. Any number of these 
releases--had they found an ignition source--could have resulted in 
consequences as tragic as Texas City.
    The refinery I worked for in Anacortes, Washington, released 
approximately 27,000 pounds of propane and propylene as light 
hydrocarbons in April 2006. They did not find an ignition source, and 
the release was contained. Had the ensuing vapor cloud ignited, the 
damage would have been extensive. The underlying cause was a pipe 
corrosion issue, brought on by a seemingly small change in the process 
which was not significant enough to trigger a Management of Change 
review, or MOC.
    The day before Thanksgiving in 1998 at this same facility, we 
experienced a situation with slightly different circumstances. Again, a 
Management of Change was not performed, and the decision was made to 
handle this abnormal event using normal procedures. The result was six 
fatalities. I was one member of a team tasked with the retrieval of the 
bodies of my six co-workers.
    The fire at the Valero refinery in Sunray, Texas on February 16th 
of this year was also a release of light hydrocarbons, propane, but 
this release found an ignition source almost immediately that resulted 
in a serious fire, but did minimal damage compared to the potential 
damage from a vapor cloud forming and then igniting.
    There could have easily been as many fatalities in any of these 
instances as there were in Texas City, but the circumstances were 
slightly different.
    Since the beginning of 2007, Valero has had a total of eight 
incidents--ranging from loss of utilities that resulted in production 
cutbacks and flaring--to four incidents that caused fires.
    This is a pattern repeated all too often. In the US, from January 
1st through February 16th of this year, there have been 43 incidents of 
pipeline leaks, chemical releases, plant upsets and fires. This list is 
not inclusive, but I seek to focus on refinery and chemical plants, as 
well as distribution facilities.
    In some instances, facilities or neighborhoods were evacuated 
without incident, sadly in others, there were lives lost.
    The United Steelworkers represents approximately half of the 
workers in the petrochemical industry in this country. We have an 
intimate concern with the well-being of the workers we represent as 
well as the industry.
    One of Union's major goals is to work with the petrochemical 
industry to make it safer for our members and the communities in which 
these facilities exist. In the case of BP, we are currently in 
negotiations with the company to institute a ten point program to 
address several items brought forward through the Baker panel report.
    Specifically we are working to establish a pilot program at Texas 
City of the Union's ``Triangle of Prevention'' program for joint 
accident/near miss investigation. We are working on collectively 
developing safety and job training programs as well as procedure 
writing and a review process for all of BP's U.S. represented sites. 
The issue of adequate staffing and reasonable work hours is also being 
addressed.
    This is a first step in our Union's goal of realizing this type of 
involvement at all the facilities we represent. Who knows better about 
the day-to-day activities and the best way to deal with them then the 
workers who perform these job duties on a daily basis?
    For me, safety in the petrochemical industry is personal. My USW 
responsibilities involve me in prevention and investigation of 
industrial fatalities on a daily basis. The focus of everything we do 
is to eliminate deaths in the workplace. When I no longer have to 
investigate workplace fatalities, I will be the happiest person alive.
    Thank you again for the opportunity to testify this morning.
                                 ______
                                 
    Chairman Miller. Thank you very much. Thank you to all of 
the witnesses.
    Let me just, at the outset, say that it is hard to grow up 
where I grew up and not be familiar with the oil and chemistry 
industry with the number of refineries that are in and around 
my home, and I worked as a student in high school and college 
for Chevron and Shell and what at that time was Phillips and 
Tosco and others, and I think I appreciate the nature of this 
industry and the hazards that are inherent when you are dealing 
around flammable chemicals and high temperatures and complex 
processes, but I am a little worried about the language in the 
hearing this morning.
    Mr. Cavaney, you say that API is the industry standard 
setting leader, and the American National Standards Institute's 
accredited Standards Development Organization operates with 
approved standards, development procedures and undergoes 
regular audits process.
    Having said all of that, this refinery was able to operate 
for more than 15 years essentially in violation of, I assume, 
all of those standards that were set in terms of looking at 
process safety standards, and so I assume that they are not 
mandatory. They are what the standards for the industry should 
be and would like to be, and you revise them all the time, but 
somehow they can also apparently be completely ignored without 
any repercussions to the company.
    Admiral Bowman, you said that BP had mistakenly chosen to 
look at worker accidents and injury and illness rates as 
opposed to process. I would think that the report of the 
Chemical Safety Board said that they chose not to look at the 
process safety procedures and what indicators those might have, 
in fact, served in terms of raising cautionary flags, red 
flags, and process changes.
    In fact, the Chair of the board, Ms. Merritt, says, quote, 
``In our final report, we concluded that organizational safety 
deficiencies at all levels of the British Petroleum Corporation 
caused this terrible accident. We found widespread safety/
cultural deficiencies both at the Texas City refinery and at 
the higher levels of BP.''
    In fact, Chairman Merritt, those reached all the way into 
the board of directors, if I understand your report correctly, 
in terms of the failures that you attribute to leading to this 
accident. Is that not so?
    Ms. Merritt. Yes. We know that at least one member of the 
board of directors on the executive committee had information 
from internal reports that identified serious safety problems 
and operational deficiencies at the facility and culture gaps 
that were not addressed. As a matter of fact, following a 
presentation of those facts, they required another 25 percent 
cutback in cost.
    Chairman Miller. So there were the cutbacks in terms of 
cost, in terms of safety and training and that, but also, let 
me ask you. It is my understanding again that this particular 
piece of equipment that was central to this accident had been 
identified back in the 1970s as equipment that was out of date 
and that there were more modern alternatives to this equipment 
and, in fact, that OSHA had warned British Petroleum about this 
some 13 years before the explosion; is that correct?
    Ms. Merritt. Yes, that is correct, and we know that other 
companies in the refining industry have replaced this piece of 
equipment called a ``blow-down drum'' with flares and with 
remote knockout drums and flares that are outside the battery 
limits of operations, which is what is recommended. However, 
BP, even though it had a policy that when this equipment was 
replaced or significantly modified that they would replace it 
with flares--and we know that they had a number of 
opportunities to do that--that they did not, and we have 
evidence, at least in one case, where they did that due to 
budgetary reasons.
    Chairman Miller. So they made a conscious choice not to 
follow those recommendations and not to replace that equipment 
with the procedure that had been identified as being safer?
    Ms. Merritt. Yes, we know that is true.
    Chairman Miller. The process safety procedures, I assume--
well, correct me if I am wrong. As I look at them, they are 
really a way of giving you early indicators of the operations 
of a refinery or of a chemical facility that when taken 
together--and that may be taken together as three incidents or 
seven incidents or 10 incidents depending on the type of 
incident--that might tell you something about either the skills 
or the training or the operations of this facility that you 
might want to pay attention to because collectively they could 
lead to a catastrophe.
    Is that a fair statement of the intent of these?
    Ms. Merritt. Yes. The Process Safety Management rule 
requires that companies that are covered by this rule keep a 
record, a log of incidents, that are called ``near misses,'' 
where a release could have caused a problem, a release of toxic 
or hazardous materials, and that that investigation is supposed 
to be kept in a record, and if OSHA were doing their program 
quality comprehensive audits of facilities prior to incidents 
they would have these records then to review.
    However, what we have found at BP is that they were not 
doing incident investigations of even very, very serious 
incidents that I would not even call ``near misses.'' I would 
call them a catastrophe except for a spark, and they did not 
investigate those. We know that they were----
    Chairman Miller. OSHA and BP?
    Ms. Merritt. BP did not investigate those and did not use 
even that evidence of a hazard when they did their hazard and 
operability reviews every couple of years. They were not even 
reviewing incidents that were occurring in their own facility. 
So we know that that part of the standard--those incident 
investigations are not required to be submitted to OSHA. They 
are only required to be kept on property, but if no audits are 
being done that just is not happening in a lot of cases, and we 
find that in other investigations, too, not just this one, that 
incidents that were prewarning events that management could 
have used to have prevented a catastrophe were not investigated 
and OSHA was doing no preventative audits whatsoever, so this 
evidence was never used to prevent an accident.
    Chairman Miller. Mr. Cavaney, how does the company, an 
international company, you know, a very successful company, how 
do they sink to this level given your standards and your 
constant review and the communications, I assume, that take 
place across all of your members? How do you sink to this level 
where for 15 years you ignore these recommendations, these 
signs, these incidents and still believe somehow you are in 
compliance with API standards?
    Mr. Cavaney. Mr. Chairman, I cannot speak specifically to 
each of the refineries. I have not been involved in the 
investigations, nor am I aware of the details.
    Chairman Miller. Would you disagree with the 
characterization that this has led to a culture, a widespread 
safety culture of deficiencies?
    Mr. Cavaney. As I said, again, Mr. Chairman, I have not 
visited any of those facilities. I am not familiar with them.
    Chairman Miller. How would you characterize what took place 
here?
    Mr. Cavaney. A tragedy.
    Chairman Miller. Have you read the report?
    Mr. Cavaney. We have not received the report yet. It is 
supposed to be out within the next week to us. Mr. Chairman, I 
am aware of the public discussion about it, and obviously it is 
a tragedy, and as I mentioned in my remarks, we operate 
refineries in high temperature, high pressure environments with 
hazardous materials, and we are consistently looking to try and 
find an edge on how we can improve safety because at the end of 
the day protecting your employees----
    Chairman Miller. Yes, but with all due respect, the API is 
not blowing up. The refineries are.
    Mr. Cavaney. I understand.
    Chairman Miller. Your constituent members are blowing up. 
You know, in my community you can get a telephone call at 3:00 
o'clock in the morning telling you you have to shelter in 
place. You know it can happen to you time and again in a number 
of my communities, and it in fact happens that way. So 
something is very wrong. I mean maybe this is what the 
administration believes is somehow voluntary compliance, the 
fact that you set these standards, but something is very wrong 
between these standards and what is happening on the ground.
    Mr. Cavaney. Well, obviously, if you have an accident, it 
needs to be investigated, and----
    Chairman Miller. But it is not.
    Mr. Cavaney [continuing]. Steps need to be taken, but if 
you look at the industry's record over time in terms of 
nonfatal injuries and nonfatal accidents, we have continued to 
make improvement, and we are trying to----
    Chairman Miller. I hope so.
    Mr. Cavaney [continuing]. Prevent all accidents, is what we 
are trying to do here through this standards process and 
through our recommended practices. It is something you are 
vigilant with and you work on consistently.
    Chairman Miller. But I think there are two problems here, 
with all due respect. One is the word ``voluntary,'' and the 
other is ``recommended'' because obviously this is a huge gap. 
This is a huge gap that the people of Texas City, you know, 
suffered, and BP for year after year after year drove their 
processes through that gap.
    And I have been more than generous with myself on the time, 
and I will yield to my colleague, Mr. McKeon.
    Mr. Cavaney. Mr. Chairman, may I just answer your last 
question? We are regulated by OSHA and a number of other 
Federal Government bodies as well as at the State level who 
conduct inspections to see whether or not compliance is going 
on. All we can do is certify what the best practices are.
    Chairman Miller. With all due respect, Mr. Cavaney, that 
did not happen. That did not happen until this place blew up.
    Mr. Cavaney. I understand.
    Chairman Miller. Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    You know, going back, looking at the report and how there 
were--of course the tragedy of the 15 deaths, but every 16 
months a death for many, many years before should have, I 
think, sent a much more serious warning signal and should have 
had a much more serious response.
    There have been comments made about that the company had 
warnings. They knew about it. A board member knew about it, and 
because of financial reasons, budgetary reasons, it did not 
make the necessary corrections or follow the recommendations 
that were given. I guess most board members or maybe all board 
members--I guess their job is to see that the company runs and 
runs well and makes a profit. It seems like there was some 
shortsightedness, and in the terms of trying to turn a profit--
and I am not against profit. I think that is what--you know, 
that is important. Nobody would have jobs. Nothing would move 
forward if a profit were not made, but by being shortsighted 
and saving on the short run, they ended up paying the largest 
fine ever. Maybe there are some things--I am hopeful that what 
comes out of this hearing and any prospective legislation or 
anything that comes from it for those 15 and all of the others 
who have died in serious accidents such as this is we, 
together, come together to try to resolve that this does not 
happen in the future, and we should come out of this hearing 
with some positive recommendations. If OSHA is not doing proper 
oversight, if your organization is not doing proper oversight, 
if the companies are not doing proper oversight, we should find 
those and find ways to make a correction.
    I know that in the report one of the things, Admiral, that 
you recommended was that we have third party audits. That is 
something that Charlie Norwood, I know--our late friend--pushed 
for four years, and I am pleased to see that in your 
recommendation.
    Can you explain how that would be beneficial in going 
forward?
    Admiral Bowman. Yes, sir.
    If I may, the entire system--in my personal view, the 
charter of our panel did not extend to looking at this 
regulatory aspect of this. We were specifically, by the urgent 
recommendation of the Chemical Safety Board, asked to look at 
the process safety management and the corporate culture of 
process safety at BP, but if I can offer my personal 
observation, to me it is incredible that what seems, to me, to 
be happening with the OSHA oversight of these refineries and of 
their responsibilities in this regard is that we are constantly 
shooting behind the duck; that is, after the accident occurs 
OSHA then comes in. There seems to be no or little preemptive 
investigation, third party evaluation of those preemptive 
investigations and evaluations.
    I would point to the mere fact that our panel filled this 
book with what we consider to be very serious and material 
deficiencies on the part of these refineries in BP, and yet it 
was only after the accident that OSHA came, investigated, found 
300 very serious or over 300 very serious violations of their 
own standards. To me and in the culture that I have grown up in 
the nuclear Navy and in the commercial nuclear industry in this 
country, that is not the way you run the railroad. If they can 
find 300 serious violations after the explosion, it would seem 
to me that preemptively finding those violations may have 
prevented this tragedy, and I think that that is one of the 
main root causes of why we are here today.
    Ms. Merritt. May I add to that?
    Mr. McKeon. Yes.
    Ms. Merritt. Under the process safety rule as it was 
implemented in 1992, there is a provision for OSHA to do 
comprehensive preemptive audits of facilities. That is part of 
the regulation already, and that part of the regulation was 
never implemented by OSHA. When they do an inspection--and we 
know that they have very few trained inspectors to be able to 
do process safety audits or preemptive audits, which are really 
quite complicated and very technical. They have done 
inspections of facilities, but they are usually after an event, 
and they are looking for things that are shop floor incidents 
and personal safety incidents such as slips, trips and falls or 
electrical connections. Whereas, if they had come in before 
this accident--I mean there were 10 fatalities in the period of 
a year preceding this one where, if they had come in and looked 
at the process for verification of implementation of process 
safety, they would have seen easily that this very important 
and very well done rule was not being implemented at the BP 
facility.
    Mr. McKeon. So it sounds like we have a cultural problem 
within OSHA, because I come from a business background before I 
came to Congress, and there used to be all kinds of complaints 
about OSHA of all of the nitpicky things that they do, and 
maybe they should be looking at these very serious, more--where 
there are much more hazardous occupations, that they should be 
really focusing on those instead of some of the little nitpicky 
things that they do get involved with. You know, I am even 
wondering if this goes back to the boardroom. Maybe in the 
selection of the board there should be one person that is 
brought on the board just to oversee these kinds of things, and 
that should be a responsibility so that when everybody else is 
sitting around talking about ways we can save money that it 
would have to go through a member of the board who has that 
personal responsibility to oversee safety.
    Ms. Merritt. And if I might speak to that. We did make that 
recommendation that the board see what a good idea it was. We 
did make that recommendation. And indeed, you know, I have 
reported to such boards in companies that have environment, 
health and safety committees and was asked very hard questions 
when there was downsizing or when we were in financial trouble 
whether or not things were being done correctly, and it was my 
responsibility to report to them on leading indicators such as 
audits, corrective findings, and what were the results of 
audits and whether funding was being spent on training and 
other things. So the indicators are there for boards to ask the 
questions if they are asking questions at all about this.
    Mr. McKeon. Thank you, and the chairman was very gracious 
in letting me use extra time, too, so I appreciate that.
    Chairman Miller. Thank you. I would also be interested in 
the qualifications of the board in the decision making process 
that when you double your profits from 2003 of $10.4 billion to 
$22.3 billion, this must have been the most expensive flaring 
system in the world if you decided
    that you couldn't afford to make this change. I mean, I 
really want to know that process of thinking that you would use 
to make that decision given the history, again, and that 
somehow that would be a deferred expenditure of cost concerns.
    Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman. First of all, I can't 
tell you how very sorry I am for you and for all of the 
families involved in that loss. I can't imagine the pain you 
are going through and how much courage it took for you to come 
here today and to talk to us.
    I have to tell you I worked in a clothing factory for 13 
years, and there was, as I have said many times, there were 60 
of us and two of us got out with all 10 of our fingers. We had 
one OSHA inspection in the 13\1/2\ years we worked in that 
plant. I find it inexcusable that OSHA--if I heard correctly, 
10 years between inspections. And I would just like to know 
from maybe somebody on the panel--and I will have a couple of 
questions for another witness--what is the problem here? Is 
this because they don't have the inspectors? Is this because 
they don't have the money to do the enforcement? Is this 
because they just don't feel like coming out and investigating 
these possible complaints? I mean, what is the holdup here? I 
cannot fathom technically in this industry a 10-year law 
between inspections. I am wondering if anybody has an opinion 
on that.
    Ms. Merritt. I would be glad to offer an opinion on it. The 
rule is there for these inspections to be done and it was 
envisioned by OSHA that they would inspect--plants would have 
comprehensive PSM inspections that could last weeks or months 
and that they would require highly trained and dedicated staff 
to do this. Unfortunately, and I can't tell you why that was 
never carried out. They have very few inspectors who are 
qualified to do process safety. Actually some of the States 
have done better. As a matter of fact, in Contra Costa County 
they have a PSM oversight group of five people that goes in and 
inspects each of their PSM covered operations every 3 years. So 
it is not a matter of difficulty. It is a matter of how are you 
going to resource it and then having the commitment to do it.
    Mr. Hare. Mr. Cavaney, in your testimony you said that 
safety in the industry is a moral imperative and a top 
priority. And the CEO, BP former CEO said we never focused on 
profits above safety. Team safety has always come first. If you 
found that one of your members was putting profits above safety 
and not complying with the API standards, what would you do? 
Can you expel them from API, report them to OSHA or EPA, or 
where is the enforcement mechanism within API if there are 
companies that----
    Mr. Cavaney. API is not a regulatory body nor do we have 
any regulatory authority. We are the experts and that is why we 
put out recommended practices and all, and then we provide them 
to the government who regulates us, and it is up to the 
government to develop either plans off of ours or develop their 
own on what needs to be done. And in the case of process 
safety, as Chairman Miller mentioned, we provided what is 
called Publication 750. We created the whole thing, put 
together the blueprint and handed it over to OSHA in order for 
them to bid on, to create their regulatory scheme.
    But it is up to the government, the various agencies in our 
refineries to do the regulation and we will comply, and I will 
certainly agree that more frequent investigations, looking at 
these things, that is how you get your improvements and 
continue to move forward because things do change over time.
    Mr. Hare. As you are aware, OSHA only requires companies to 
log the illnesses and injuries on the workers on the sites. But 
what about the contractors? I mean, if people who are not the 
employees, per se, of the refinery, how do you log those 
illnesses and injuries and are those people, if they are not 
included in the safety reports, isn't that--that is really an 
inconclusive report, it would seem to me, if the contractors 
aren't reported in safety inspections or included in illnesses 
or accidents.
    Mr. Cavaney. If I could explain the process. The employees 
and contractors that are going to work on the refinery facility 
all go through the same training and briefings on safety.
    The contractors who have an operational role in running the 
refinery, as an employee does, they are reported together. But 
the government regulations for reporting incidents says 
contractors who are not on operational mode; in other words, 
those who are looking at a turn-around and going through 
construction and all, they are reported in a different category 
and we have no control over that. That is what the government 
requires us to do. But they are all trained and exposed to the 
same sort of briefings and awareness regardless of whether they 
are an employee or a contractor.
    Mr. Hare. The ranking member said, you know, what can we do 
here. And there are a number of questions. It would really 
appear to me that we are going to have to take a long look at 
OSHA and its effectiveness and the kinds of funds that we are 
willing to put into it to get the inspector out there 
periodically because, again, I go back to this and you know I 
see the pain on your face. I can't for the life of me 
understand why a governmental agency tasked with trying to keep 
people safe and making sure their workplace is safe has a 10-
year break between the time they go out and investigate and 
that is really shameful, and I am hoping this committee will be 
able to take that up. And I will promise you this. I will do 
everything I can as a permanent member of this committee to 
kick some OSHA people in the kneecaps.
    With that, I yield back.
    Chairman Miller. Thank you. Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I want to thank you 
for, and the committee, for holding this important hearing and 
hearing from the tragic events that occurred 2 years ago 
tomorrow and that we work to ensure these events are never 
repeated and that we do better to ensure worker safety.
    I also want to convey my sympathies to Ms. Rowe and her 
brothers and all of the family members who lost loved ones on 
that tragic day. I regret I am supposed to be in an oversight 
hearing on Iraq across the hall, and I am going to yield the 
balance of my time for purposes of questions to Mr. Boustany, 
please. Thank you.
    Mr. Boustany. I thank my colleague.
    Thank you for holding this hearing. It is a very important 
hearing. And I also convey my sympathies to you and the others 
who have lost loved ones in this.
    Mr. Cavaney, how long has API been developing industry 
standards?
    Mr. Cavaney. We developed the first one starting in 1924, 
and we have currently an inventory of about 500, and of those 
500, 110 of them relate specifically to the process of safety 
issue.
    Mr. Boustany. Thank you. And are the API standards process 
an open process? How do you convey these industrywide?
    Mr. Cavaney. Our standards process is ANSI, accredited 
American National Standard Institute. And under that process, 
you must conduct a fully transparent and open development of 
standards. So anybody who is a stakeholder in the industry; in 
other words, somebody that has the material interest in the 
industry is invited to participate in the development of those 
standards and recommended practices.
    Every year at the beginning of the year through NIST, we 
issue all the recommended practices and standards that are 
going to be reviewed in the upcoming year so that people with 
an interest will have knowledge that they are going on and they 
are welcome. And as a matter of fact, that is the strength of 
the standard process, is you want experts and people outside 
the industry so we don't end up creating blind spots because we 
are not aware of something that is going on.
    It does take a bit of time and it is a collaborative 
process, and the agreement that ultimately comes up is we end 
up turning out documents so that people can see how it is going 
forward, and as I mentioned here, a little later this spring we 
are going to produce the first standard recommended practice 
that comes out on trailers, which is a very specific finding 
that the Chemical Safety Board recommended that we review.
    Mr. Boustany. Thank you. My understanding is that the CSB 
report recommends that API work with the United Steelworkers on 
some new standards. Is API willing to work with the 
Steelworkers?
    Mr. Cavaney. Yes, we are. In order to develop standards, we 
have to be open and welcome anybody who is a stakeholder, and 
certainly our workforce is a stakeholder.
    The points that they have raised, we have not had direct 
discussion but we have seen some of the press statements that 
they have made and those are exactly the kinds of things we 
factor in even though they are not at the table. So their 
feedback has been considered as they go forward, and I think 
talking earlier with Mr. Nibarger to have an opportunity now to 
directly engage I think will actually speed the process of 
assimilating some of this input into the process.
    Mr. Boustany. Mr. Nibarger, are the Steelworkers willing to 
work with API on the development of future standards?
    Mr. Nibarger. Yes, sir.
    Mr. Boustany. Have you worked with them before?
    Mr. Nibarger. No, sir. We have not.
    Mr. Boustany. Why?
    Mr. Nibarger. As far as I know, we have never been asked.
    Mr. Boustany. Mr. Cavaney, it sounds like the process is 
open and you have tried to bring in all stakeholders. Can you 
respond to that?
    Mr. Cavaney. It is an open process. We try to look forward. 
We can't change what happened in the past. I think this is an 
opportunity that we should all take advantage of.
    Mr. Boustany. You share that sentiment, Mr. Nibarger?
    Mr. Nibarger. Yes, sir, I do.
    Mr. Boustany. Thank you. CSB and Baker both made statements 
extending their findings to the U.S. refining industry as a 
whole. On what ground do you base those judgments? I mean, is 
there anything official or scientific to extend those 
judgments?
    Mr. Bowman. For our part, we base those judgments not on 
direct inspections of other companies but rather through the 
massive year-long process that we went through interviewing 
union workers, union officials, required officials from the 
refinery business, contract workers who go from plant to plant, 
company to company. And if the red light hadn't come on when it 
did, I was going to say that the panel reports that we are 
under no illusion that the deficiencies we found at BP are 
limited just to BP based on those observations.
    Mr. Boustany. Mr. Merritt, would you like to respond to 
that?
    Ms. Merritt. Our investigation was at the BP facility, 
Texas City, and it is a corporate link to this event.
    We have had many conversations with others that indicate 
that this is not a unique situation. As a matter of fact, in 
the past several years, I have been doing numerous 
presentations to groups and invariably every time people come 
up to me and say this situation exists at our facility as well. 
So we felt that extending these two industries, not just the 
petroleum industry but the chemical industry and chemical use 
industry as well is well-founded, that these situations exist 
everywhere.
    Mr. Boustany. Thank you.
    Mr. Chairman, I see the time has expired here.
    Can I claim my 5 minutes now to continue a few questions?
    Chairman Miller. No. We are going to rotate to Mrs. Shea-
Porter.
    Ms. Shea-Porter. First, Ms. Rowe, let me express my deep 
pain on hearing what happened to you. I worked in a factory 
that dealt with some chemicals through the summers, and I know 
they did not adhere to safety standards then, and I am so 
deeply disappointed to hear that even now we have this struggle 
and I deeply apologize. And I don't understand either. I share 
the rage of this committee trying to figure out why we have 
OSHA and why we have oversight when we don't do it.
    And I am wondering how many times we will have hearings 
like this on the next accident and the next until we tell the 
truth to the American people, which is that we need oversight 
for every industry, and heaven knows I believe in profit also, 
but for every single industry in this country that has a risky 
part of its business, we must have the oversight, the 
protection so that we don't sit here again and again. And so I 
apologize for the failure of OSHA and the failure of so many 
others that have left you in such pain.
    I will say that I have been looking at your parents' 
picture the whole time. As you know, your mother is smiling and 
I am sure she is smiling because of the great courage that you 
are showing. So she obviously raised a very good daughter.
    Having said that, I would like to address some comments, 
please, first of all to Mr. Cavaney.
    Are you asking members to report near misses to you, to 
API? Apparently, they didn't feel the need to report to OSHA. 
Do you collect any data?
    Mr. Cavaney. We don't collect the data. To say that our 
role in this is to set the standards and set out the framework.
    Ms. Shea-Porter. I understand that, but do you have any 
kind of feedback. You have these people who are actually 
members of API, and I am sure you want it to look like you are 
really doing a good job setting the standards. Were you ever 
aware that data was not being collected for near misses?
    Mr. Cavaney. One of the things that we tried to do is 
obviously look at the latest information, and I personally have 
not been aware of that kind of thing, but I will ask among the 
people in our organization who work the standards and get back 
to you.
    Ms. Shea-Porter. If you don't collect the data, there is 
nothing to look at. It is easy to say that everything is going 
well if you don't ever open a book and have any indication at 
all that things aren't going well.
    Let me ask you, did you ever complain as a group about OSHA 
standards being too tough or indeed maybe too easy? Was there 
ever any conversation about OSHA not showing up at plants or 
that you thought OSHA was, quote, breathing down the neck of 
the industry?
    Mr. Cavaney. I am not aware of any complaints about them 
being too stringent or the frequency of their visits.
    Ms. Shea-Porter. Okay. Also, could you tell me are there 
any improvements in current OSHA standards or new standards 
that you think would help that you would be endorsing right 
now?
    Mr. Cavaney. Well, there is a group called the OSHA 
Alliance, which is they brought together many of the 
associations and organizations who have been involved broadly 
in the petrochemical and in the oil and gas industry. And what 
they are doing is looking at process safety and seeing how we 
can move it to the next level and what is the best practices 
efforts that are going on right now, and one of the key 
findings of that group is going to be when all of the reports 
are actually made available and reviewed is they will come out 
with a report and a finding about what we should do and which 
gets priority rankings so we can move forward from there.
    Ms. Shea-Porter. And then what happens? I guess my concern 
here is that we collect reports after every accident, and they 
sit some place on a shelf, and then once again, we have an 
accident. What happens and what do you think your role could be 
to make sure that what you actually hear is disseminated to the 
groups that you represent and also that there is some kind of 
measurement that people cannot belong to your organization 
unless they are adhering to a certain standard. I mean, do you 
hold their feet to the fire or can you just automatically have 
membership because you are in the business?
    Mr. Cavaney. Two points. The first answer is when we get 
new findings or we hear of something, we institute a review of 
the standards. We go back and look at it because it doesn't--
there is actually--if you go back to our documents that we 
produced for OSHA in the early 1990s, it says that if you don't 
have contemporaneous and current regulations in place and 
guidance, that employees go on their own and come up with other 
systems and some of those systems may not be any more safer and 
could actually be worse. So we are very vigilant about getting 
the latest technical information and going through that 
process.
    On the second point you made, we are a voluntary trade 
association, and if we prohibit people from participating we 
then run into antitrust problems and so we can only provide 
guidance. We are not a regulatory body. So people come to us 
and we give the government the guidance that we have.
    Chairman Miller. Correct me if I am wrong on this. But as I 
understand, the Institute of Nuclear Power Operation audits the 
nuclear safety, and essentially, I guess, they ask companies to 
leave that don't comply.
    Mr. Bowman. Yes, sir. That is correct.
    Chairman Miller. They are paid for by the industry; is that 
correct?
    Mr. Bowman. Yes, sir. That organization arose after the 
situation at Three Mile Island. It is a peer sponsored and peer 
paid for organization. They have that license. They have that 
license to ask people to leave who don't comply.
    Chairman Miller. My assumption was what was at stake here 
in the future of the industry and all of those ramifications if 
these power plants were not operated to the state of the art 
and knowledge of the industry.
    Mr. Bowman. Yes, sir.
    Chairman Miller. So there is at least one example there 
where this is more than a voluntary or induced paying 
organization where you don't throw out anybody who pays you 
dues. You comply with what is supposedly the best 
recommendations from within the industry. You either do or you 
are out. It is very interesting to have all of this commotion 
going on. We have all of this commotion. We have got all of 
these experts, all of these outside people reviewing this, and 
they can simply lay on the table. Nobody has any obligation to 
pick up anything. There is no downside to not taking the best 
recommendations that the industry can demonstrate internally.
    Mr. Bowman. Our panel report, sir, does recommend that the 
refinery industry consider modeling an organization after the 
Institute for Nuclear Power Operations because it has been so 
successful in helping the nuclear industry along with the 
Nuclear Regulatory Commission that performs a minimum of 2,500 
man-hours of preemptive inspection per year at each plant.
    Chairman Miller. This is all doable. Thank you for 
yielding.
    Ms. Shea-Porter. That is exactly my concern here is that by 
not holding your members to standards you are allowing them to 
get the credit of belonging to your organization without having 
any responsibility to it. And I just want to read the statement 
that you had on your Web site saying--you are talking about the 
gas and oil industry being increasingly a safer place to work. 
This is reflected by a declining rate of illnesses and 
injuries, a rate much lower than that for the private sector as 
a whole.
    Well, obviously, this company did not deserve to have that 
kind of praise put upon them. Very clearly they didn't deserve 
this. And so I am deeply disturbed that they can be a member 
and that you actually don't have any teeth, and so therefore, 
the rest of us looking at this assumed that they are reaching a 
certain level of professionalism and a certain level of 
certification and, boy, were we all wrong.
    So I just would like to say that I think that, you know, we 
need to hold them to some kind of a standard in order to be 
able to belong to your organization. And I hope, I deeply hope 
and pray that we are not going to be sitting here again in a 
few years because once again you did great research, and I 
thank all of you for what you did, but I think it will go 
nowhere until we have another accident.
    Mr. Boustany. Thank you, Mr. Chairman. I am still not clear 
on the last question that I had asked about extrapolating your 
findings from BP to industrywide. Would you describe that 
information as anecdotal information or----
    Ms. Merritt. More or less, but remember, we do audits. I 
mean, we do investigations at a lot of facilities throughout 
the industries that have had explosions, fires and releases, 
many of them that have impacted communities extensively.
    And so we recognize that the patterns of behavior we saw in 
this investigation were not askew from what we find at almost 
every other investigation.
    So with that connection, I think if the evidence--I mean we 
track evidence, our recommendations go where the evidence leads 
us. And in this particular case, although we didn't investigate 
all of those other facilities, we have done 40 or 45 
investigations in our short history and, unfortunately, we see 
the same pattern of behavior at facilities that blow up. So you 
begin to say maybe there needs to be something done to correct 
this behavior. And so that is why we have included other 
industries, not just BP's facilities, but the entire refining 
industry that should wake up to this and other industries that 
should----
    Mr. Boustany. Have you addressed reports to Congress based 
on the information prior to the BP explosion?
    Ms. Merritt. No, we haven't.
    Mr. Boustany. Why?
    Ms. Merritt. I don't know.
    Mr. Boustany. Okay. Fair enough.
    Another question. One finding in the Baker Panel was the 
Baker Panel found that, but didn't report, the fact that Cherry 
Point, a nonunion refinery, had the best safety culture of all 
of the BP refineries. Is that what you did find in fact?
    Mr. Bowman. The report is accurate. We would draw no 
conclusions from that other than it is a fact.
    Mr. Boustany. Okay. Thank you.
    And again, Ms. Merritt, CSB has asked for a sizable budget 
increase next year. In the board's 2008 budget request, you 
specifically requested funds for addressing leading and lagging 
indicators. What are those indicators?
    Ms. Merritt. There are a number of them that actually are 
well known in industry. The Health Safety Executive of England 
a number of years ago put out a book with lagging and leading 
indicators for industry to use. There was a very serious 
incident at a BP facility there in Grangemouth, and one of the 
things that was identified was that there were not prominent 
leading-lagging indicators for industry. So they did quite a 
bit of research. Unfortunately, although many people in 
industry are aware of those, they are not being used.
    And so we think that a study here, including industry here 
in the United States, and experts that could come up with 
leading and lagging--or leading indicators, they have lots of 
lagging indicators--that they would be able then to accept them 
and use them in their own industry in identifying when risk is 
growing in their operations and their companies.
    Mr. Boustany. What do you see your role to be with the 
recommendation that you gave to API that API and USW 
collaborate on the worker fatigue issue?
    Ms. Merritt. I think that is a very important issue. There 
has been a lot of research done through the National 
Transportation Safety Board and others with regard to the role 
fatigue plays. And what we would do is that--because it is a 
recommendation, they would be submitting to us their results of 
their work together, and we would then have a board vote which 
would either accept it as acceptable results of that work or 
unacceptable results of that work. And that would be our work.
    Mr. Boustany. Thank you. That is all I have, Mr. Chairman. 
I yield back.
    Chairman Miller. Thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you. And I want thank you, all of our 
witnesses, for your testimony here today.
    My first question is for Mr. Cavaney. We now know that BP 
cut the Texas City refinery's budget by 25 percent in 1999 even 
though previously Amoco had made deep budget cuts. Maintenance 
supervisors, control room operators, central training staff and 
training programs all went under the budget knife. Now in your 
testimony, you state that safety in the industry is a moral 
imperative and a top priority.
    I think most people would agree, and there may be room for 
argument, that corporate executives in your industry, not just 
your industry but others as well, continually get rewarded for 
reducing costs and increasing stock prices. So my question to 
you is, is cooperation really enough? I mean, or do you think 
that it is imperative that your industry be closely watched by 
independent and strict regulators because my feeling is if you 
don't have nonvolunteer programs, strict auditors, strict 
inspections, how can you be sure that the profit motive isn't 
going to bind decision makers who are seeking short-term 
benefits to pump up stock prices, for example?
    Mr. Cavaney. We do have one of the most complex regulatory 
oversights. There are six different Federal agencies who have 
oversight responsibility for regulating us. That is why we have 
such an extensive series of recommended practices in place and 
all.
    But I want to underscore again, if you go to any refinery, 
almost the first thing you are going to see when you come in is 
a large sign that talks about the incident rate where they take 
great pride in trying to reduce those. It is a difficult 
operating environment, but we do all that we can. And our 
nonfatal incident rate is about--at only about 25 percent of 
all manufacturing industry average. So we have made some gains 
and we can do better.
    And that is what we are trying to learn from these CSB 
reports, the Baker Commission, looking forward to the 
opportunity of working with the Steelworkers.
    It is a continuous improvement process, and you keep 
working at it and the regulatory oversight, they should come in 
and be a participant. We provide these things to them and then 
it is in--it is their responsibility to set their regulatory 
framework and what they are going to do or tell us this is not 
correct and we look at it again.
    Ms. Sanchez. I appreciate your answer. I think what I am 
trying to get at is the fact that OSHA inspections sort of 
moved in this area of voluntary compliance instead of the 
ongoing oversight that it--active oversight that it should have 
had.
    So my next question is for Ms. Merritt. Considering that 
OSHA has only a limited amount of funding, would you recommend 
that they put more towards enforcement or towards these 
voluntary partnership programs?
    Ms. Merritt. Well, the problem with voluntary programs is 
not everybody volunteers.
    Ms. Sanchez. Very well said.
    Ms. Merritt. I think OSHA does have a very prominent role 
in educating industry about hazards that exist when they are 
identified, and so for that I think they do have a very large 
role in that program.
    But, you know, enforcement is necessary. Otherwise, if you 
have a voluntary compliance, then, you know, it sort of sets 
its own standards and you will have some companies, and I see 
this all the time, who go above and beyond what is required and 
they know it is good business. But you have a lot of companies 
who will only do what is required. And remember, regulation is 
a kind of an agreement that is settled at the lowest 
denominator that is acceptable. And then you have companies 
that won't do anything unless they are caught. And those 
companies are at risk. And their employees and their 
communities are at risk.
    Voluntary standards work if there is good enforcement that 
is required for the rules that are required. PSM is required. 
It is not a voluntary standard. And to have voluntary alliances 
on implementing PSM is kind of an oxymoron because it is 
required. OSHA needs to be spending resources on making sure 
for the American public that PSM is implemented. I have said it 
before. It is a good rule when it first came out. I read it, 
and I went to my CEO and I said if we are not doing this 
already, shame on us. It is a good rule. And it will prevent 
these catastrophic accidents from happening if it is 
implemented. The problem is it is not being implemented 
everywhere.
    Ms. Sanchez. I have no further questions.
    Chairman Miller. Thank you. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    I thank the panel for testimony, Ms. Rowe in particular. It 
is clear you are still in a lot of pain from this accident, and 
you showed tremendous courage being here today to testify.
    Mr. Cavaney, I am curious as to the reaction of API to this 
tragedy. Was it one of saying--because you talked about how the 
audit has now stimulated the industry and API to develop new, 
more heightened standards. Are there--can you give me three 
examples of a standard that has been newly fashioned or 
articulated as a result of this? That if it had been in place 
it might have made a difference in that case? If it had been 
followed in that case?
    Mr. Cavaney. I can give you, Congressman, some specific 
examples of things that we are doing, and if the intent of 
doing the new recommended practices is they will improve the 
safety of the environment, then theoretically you could argue 
that you would have fewer incidents from that. That is what the 
whole process is about.
    The first of these I mentioned in my opening testimony 
could be--we heard earlier from the Chemical Safety Board about 
concerns with regard to trailers in refineries. And so we have 
been through a process and will this spring issue a final new 
recommended practice on trailers. So that is one aspect.
    The second one, as was mentioned by the chairman, are 
concerns about these sort of ``blow down'' circumstances where 
they are dealing--their recommendation was where we look at a 
situation where they convert over to a closed system with 
flaring process. We also have that particular standard and 
recommended practice in review, being now out for circulation, 
comment and going through the regulating process and it will be 
coming out.
    We have also got a task force working on what we call 
process safety performance metrics, and this goes to the point 
several of the people have mentioned, which is creating a 
methodology where you can capture specifically those possible 
early indicators that you ought to pay attention to those. So 
as soon as that task force work is done, we will then formally 
go into the ANSI process and anticipate that.
    We are also anticipating the other recommendation that we 
haven't yet received, but we know it is going to be coming, is 
this situation about worker fatigue and what we can do in that 
regard. From my experience, though, I have looked and talked to 
a number of people, and usually the hours and things like this 
are agreed upon by the owner/operator and the workforce at the 
time the contracts are signed and so we will have to look at 
that from a number of ways, but it is going to go into that 
process.
    So we do take this stuff seriously. It is an open process. 
Anybody who is a stakeholder can come and offer their inputs, 
their suggestions and see whether or not we are doing what we 
are asked to do.
    Mr. Sarbanes. So the implication of now stepping into those 
higher standards or taking the three that you described is that 
they weren't there before, right?
    Mr. Cavaney. No. That is not necessarily true.
    In some cases the Chairman from CSB said some companies 
operate at a very high level, well beyond standards. Others 
have them in place. We had--a lot of this stuff is actually 
down but there were new things that were brought to light that 
we were not aware of as a result of the CSB investigation and 
those things now cause us to factor in a new review and take 
those under consideration.
    That is the the thing I mentioned earlier, this is a 
continuous process. As technology changes, as new demands are 
put on industry, other necessary things come to light and you 
want to factor those in. We mentioned also if you don't operate 
your recommended practices and standards, the workforce knows 
they are not relevant to the circumstances and they create 
their own rules and do their own things, and that is not good 
for safety.
    Mr. Sarbanes. I guess it raises a question of how much the 
standards that matter depend on an incident occurring in order 
to trigger them versus ahead of time preemptively doing the 
kind of review and study and enforcement that would put those 
standards in place so that these things wouldn't happen to 
begin with. So that was the nature of my question.
    I am running out of time, but I wanted to say, Mr. 
Chairman, that we are talking about a combustible mix here that 
produced this tragedy in terms of the physics of it. But I am 
brought to a different kind of combustible mix, and that is 
that you hope that an individual company will enforce the kinds 
of standards that would avoid this kind of a tragedy but that 
doesn't always happen. You then hope that the industry will 
enforce standards in the absence of an individual company doing 
it. But where an industry doesn't do it, then you have the kind 
of regular oversight that OSHA represents and that is when you 
need the resources in place to make sure the inspections are 
there. So I think a terrific case has been made this morning 
for why we need some mandatory oversight with respect to OSHA 
and the resources to back that up.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you. Mr. Holt.
    Mr. Holt. Thank you, Mr. Chairman, and thank you for 
holding this hearing. Thanks to the witnesses and Ms. Rowe. We 
appreciate your coming knowing how difficult it is.
    We are here not to just express sympathy though. We are 
supposed to take actions that make people's lives better. A 
historic example of that was when, under the leadership of the 
late Senator from New Jersey, Pete Williams, we created OSHA. 
It was so that workers could go to work without fear, perhaps 
with caution but without fear, and expect to come home at the 
end of the day and expect to come home with their fingers and 
their eyesight and their lungs intact.
    Chairwoman Merritt, you spoke of your commission being 
absolutely terrified that such a culture could exist.
    Now, I don't mean to demonize the industry, but the 
industries in many cases have demonized OSHA. Get the 
government out of our way, they say. Free us of the cost of 
compliance. Let us police ourselves. And in effect, over the 
years they have managed to turn OSHA into a starved lap dog.
    In New Jersey here, we have from the New Jersey Work 
Environment Council a report with regard to process safety 
management, of the 21 facilities in New Jersey that could each 
potentially harm 15,000 or more people, only eight have been 
inspected by OSHA in the last 5\1/2\ years. Six have never had 
even one OSHA inspection.
    It seems that we need catastrophic deaths to get an action.
    Well, Mr. Cavaney, you and I have had really interesting 
and informed and rational discussions about a variety of 
matters, including alternatives to fossil fuels and other 
things. And, you know, but I have a question for you. It seems 
to me these findings would lead you and your organization to 
say things have to change at OSHA.
    Would you support that OSHA increase staff, training and 
general resources, that OSHA require sites to report close 
calls and warning events, that injury reports be kept for each 
site, including contractors, everyone involved and the risky 
activities, that there be process review audits and that OSHA 
resources go for increased enforcement rather than voluntary 
programs and partnerships? And if not, why not?
    Mr. Cavaney. Well, I think that OSHA, any regulatory 
oversight, has a proper role and it ought to do its function, 
whatever is deemed to be possible to fulfill its mission.
    Mr. Holt. Would you support a requirement of process review 
audits?
    Mr. Cavaney. I am sorry, I am not an expert on that. We 
would have to look at that--
    Mr. Holt. Would you support that there be required reports 
of close calls and warning events at every OSHA covered site?
    Mr. Cavaney. I would like to respond to the list that you 
gave of items after the hearing if I could and give you the 
exact answer.
    Mr. Holt. And an injury report for each site, total site.
    Mr. Cavaney. If that is appropriate. I just don't know. I 
will get it to you. And we do support----
    [The information follows:]

                              American Petroleum Institute,
                                    Washington, DC, April 12, 2007.
Hon. George Miller,
Chairman, House Committee on Education and Labor, House of 
        Representatives, Washington, DC.
    Dear Chairman Miller: In response to your April 5, 2007 letter to 
me following up on my March 22 testimony at the House Education and 
Labor Committee hearing on ``The BP Texas City Disaster and Worker 
Safety,'' API offers the following responses to your questions:
    Would you support a budget increase for OSHA that would increase 
staff, training, and general resources dedicated to enforcing the 
process safety management standards in our nation's refineries and 
chemical plants?
    API Reply: As a matter of policy, API does not offer comments on 
government agency appropriations or the adequacy of agency budgets. 
However, it is important that OSHA be adequately resourced to 
accomplish its mission.
    Would you support a requirement for refineries to report close 
calls and warning events to OSHA?
    API Reply: The current OSHA regulations on ``Process Safety 
Management of Highly Hazardous Chemicals'' (29 CFR 1910.119) already 
requires that ``The employer shall investigate each incident which 
resulted in or could reasonably have resulted in a catastrophic release 
of a highly hazardous chemical in the workplace'', and requires 
employers to maintain these records for inspection by OSHA for five 
years. I would also note that Ms. Carolyn Merritt, Chairman of the U.S. 
Chemical Safety Board, remarked during the March 22nd hearing that this 
regulation, as currently written, is a ``very important and well done 
rule.''
    Would you support that OSHA injury and illness reports be kept for 
all workers at the site, including contractors, rather than just the 
main employer?
    API Reply: The PSM regulation already requires companies to 
maintain employee and contractor employee injury and illness logs on-
site related to work in the process areas (29 CFR 1910.119 Section 
h(2)(vi)).
    Do you believe that API should require regular third party process 
review audits as a condition for membership?
    API Reply: API has a long and distinguished history of developing 
industry consensus standards. Due to antitrust concerns, API does not 
make its standards mandatory for membership, which is consistent with 
current practice. Therefore, API does not conduct audits or require 
third-party audits of its members' compliance with API standards.
    Do you think that OSHA's resources should go for increased 
enforcement rather than voluntary programs and partnerships?
    API Reply: Again, API's response is similar to that of the first 
question above. API believes it is the agency's role and responsibility 
to manage its resources with Congressional oversight; thus, it would 
not be appropriate for API to comment.
    If there are any further questions, or if you would like any 
further briefings to any of the questions above, please contact me. API 
would be happy to arrange a meeting for you with the appropriate, 
qualified individuals.
            Sincerely,
                                               Red Cavaney,
                             President and Chief Executive Officer.
                                 ______
                                 
    Mr. Holt. This should be a wakeup call and OSHA--this is 
not what was intended when nearly 4 decades ago we passed OSHA. 
It made a huge difference. There are people who have their 
fingers, their eyesight, even their lives because of OSHA. But 
it is becoming less and less effective. And we have a 
responsibility, I think, to restore that effectiveness to OSHA.
    Chairman Miller. Will, the gentleman yield?
    I would hope that you, Mr. Cavaney, you and API would take 
the questions that Mr. Holt just asked you and give them very, 
very serious consideration because I think we are reaching a 
point here where API can become an enabler for very bad 
behavior and provide cover for very bad operators, and I don't 
think that is the intent of the organization, and I have had a 
long relationship with the organization and I have a great 
relationship with the refineries in my district. But I am 
worried here that you can say whatever OSHA does, OSHA does, 
and whatever is sufficient is sufficient and whatever happens, 
happens. At some point, you are enabling really bad behavior 
because they are hiding behind that they belong to an 
organization that is on the cutting edge. But if the cutting 
edge never cuts, I suspect that we have got a problem here. And 
we have lived with this notion for a long time, but I think you 
can hear from the members of this committee on both sides of 
the aisle that perhaps this voluntary compliance, on whatever 
level, happens, happens is not suitable. I don't know the 
answer yet, and I will work with my colleagues to determine 
that. But I would take those questions very seriously as an 
organization because someone is going to have to come out from 
behind this and start to recommend what should be done to 
protect and to save the lives like the parents of Ms. Rowe 
here. I think it is critical to that, and I thank the gentleman 
for yielding.
    We are running out of time, and I want to give Mr. Sestak a 
moment here.
    But before that, Ms. Rowe, I would like to ask you if you 
could tell us about the Remember the 15 bill that you will be 
talking to the State legislature tomorrow.
    Ms. Rowe. Well, can I have my attorney? Brent can tell you.
    Chairman Miller. Whatever is comfortable.
    Mr. Coontz. Thank you. I paid----
    Chairman Miller. Just identify yourself for the record.
    Mr. Coontz. Brent Coontz from Texas. I am Eva's personal 
counsel. I have also had the pleasure of serving as liaison 
counsel for all of the plaintiffs in the litigation pending as 
a result of this tragedy. I am also general counsel----
    Chairman Miller. Tell us about the bill.
    Mr. Coontz. The bill is Remember the 15 bill, and basically 
what we have done from the investigation and the civil 
litigation is address many of the things that we thought all 
along were the root causes; that is, the trailer citing issues, 
ban the utilization of temporary trailers inside of facilities; 
the mandatory warning and evacuation of personnel, nonessential 
personnel; and the startup and shutdown of units which are well 
known to be the times of gravest risk in the industry; 
mandating proper training, proper tracking of near incidents, 
of near misses. It is those types of common sense issues. 
Removal of open ventilation systems. Obviously, the blow-down 
drums here are antiquated technology and those types of things 
should all be removed.
    Most all of those are common sense protocols. We go before 
the Texas legislature tomorrow. We have sponsors of this bill 
in both the House and the Senate, and we are using tomorrow, 
the anniversary, as the platform to publicize that legislation.
    Chairman Miller. Thank you.
    Ms. Rowe, did you want the say something else?
    Ms. Rowe. I think maybe you guys should consider making an 
OSHA for every State, not just one worldwide one, that every 
State has itself----
    Chairman Miller. That was one of the plans.
    Mr. Sestak.
    Mr. Sestak. Thank you again, Ms. Rowe. Just 30 seconds.
    The question I was going to ask was the same one Mr. Holt 
asked almost, although he always speaks better than I can.
    But that is what I am interested in since in Marcus Hook we 
have Conoco and Sunoco, and I wasn't here for Admiral Bowman's 
comments, but I am sure that I have seen a system in the U.S. 
Navy that truly understood that no accident can be done. You 
have done it. And there is a system, and that type of attention 
to detail, you know, sometimes you get--you can expect what you 
inspect. And I am very interested in it because I have gone to 
both refineries.
    And again, Admiral, I wasn't here for your portion of it. 
It was a great mentor to me. But that type of system I truly 
believe has to be done to walk and crawl through those spaces 
there and to watch what could be prevented. So I would just--
and I need to conclude. I would be very interested in the 
answer that the chairman really looks forward to.
    Chairman Miller. Thank you very much, Mr. Sestak. Let me 
thank you all for your testimony.
    Mr. Nibarger, we didn't really get to you. I am going to 
ask if you can come back because I have a whole set of 
questions that I wanted to ask you about trying to put together 
what Mr. Cavaney has talked about in terms of finally getting 
these workers and employers together not in an adversarial--not 
related to contracts. And I was just visited by Kaiser, which I 
believe is the largest HMO in the country, and SEIU, and since 
they joined forces here over the last several years, we have 
seen accident rates go down, litigation rates go down, quality 
go up, death rates go down. And the fact of the matter is we 
can develop workplaces, as Admiral Sestak pointed out, we do it 
all of the time in the military where these are just 
unacceptable losses and to be avoided. But so my apologies that 
we didn't get a chance to ask you a question.
    I have a whole series of additional questions, but we are 
going to be about 45 minutes on this vote. You have been very 
generous with your time, with your expertise. So I am going to 
adjourn the committee, but I would hope, you know, that we plan 
to follow up with each of you as we progress through this. I 
think you can tell this is a very, very serious matter for the 
members of this committee on both sides of the aisle.
    But clearly the status quo is unacceptable and again my 
thanks to the Chemical Safety Board. I can't tell you the value 
of your independence and what it has meant to workers, and I 
hope to employers, across this country as you have led these 
investigations and to you and your staff and your persistence. 
Thank you so very, very much.
    With that, the committee will stand adjourned.
    Thank you.
    [The prepared statement of Mr. Marchant follows:]

Prepared Statement of Hon. Kenny Marchant, a Representative in Congress 
                        From the State of Texas

    Mr. Chairman, thank you for convening this hearing.
    There is no doubt that BP's Texas City incident was tragic and 
inexcusable. I support the work of the Chairman and the CSB in 
examining this matter. However, I find it interesting that two of the 
subjects of this hearing--BP and OSHA--are not here to speak for 
themselves. I want to be very clear, I don't defend or condone the 
actions of either of these entities, but in the spirit of equal time, 
I'd like to submit for the record a copy of the statement that BP 
issued last evening stating:
    ``BP accepted responsibility for the March 23, 2005 explosion and 
fire at the Texas City refinery. We have apologized to those harmed. 
While we cannot change the past or repair all the damage this incident 
caused, we have worked diligently to provide fair compensation, without 
the need for lengthy court proceedings, to those who were injured and 
to the families of those who died. On the recommendation of the U.S. 
Chemical Safety and Hazard Investigation Board (CSB), we created an 
Independent Panel, led by Former U.S. Secretary of State James A. 
Baker, III to assess process safety management and safety culture at 
our US refineries. The Independent Panel undertook extensive 
investigations, and issued their report in January of this year. BP is 
implementing the recommendations in full. We have completed and made 
public the results of our own investigation of the incident and, as CSB 
Chairman Merritt has publicly recognized, BP cooperated in an 
unprecedented way with the CSB investigation. BP voluntarily produced 
to CSB over 6,300,000 pages of documents, made over 300 witnesses 
available for CSB interviews, including some of its most senior 
executives and, importantly, agreed to form the Independent Panel. 
Notwithstanding the Company's strong disagreement with some of the 
content of the CSB report, particularly many of the findings and 
conclusions, BP will give full and careful consideration to CSB's 
recommendations, in conjunction with the many activities already 
underway to improve process safety management.''
    Thank you, Mr. Chairman.
                                 ______
                                 
    [Whereupon, at 11:50 a.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
